   Pension Benefit Guaranty Corporation
        Office of Inspector General
                  Audit Report




Audit of the Pension Benefit Guaranty Corporation’s
  Fiscal Year 2010 and 2009 Financial Statements




                November 12, 2010
                                      AUD-2011-2/FA-10-69-1
                                   PENSION BENEFIT GUARANTY CORPORATION
                                                                   OFFICE OF INSPECTOR GENERAL
                                                   1200 K STREET, N.W., WASHINGTON, D.C. 20005-4026




To the Board of Directors
Pension Benefit Guaranty Corporation

The Office of Inspector General contracted with Clifton Gunderson LLP, an independent certified public
accounting firm, to audit the financial statements of the Single-Employer and Multiemployer Program Funds
administered by the Pension Benefit Guaranty Corporation (PBGC) as of and for the years ended September
30, 2010 and 2009. They conducted their audits in accordance with auditing standards generally accepted in
the United States of America; Government Auditing Standards, issued by the Comptroller General of the United
States; attestation standards established by the American Institute of Certified Public Accountants; and OMB
audit guidance.

In their audits of PBGC’s Single-Employer and Multiemployer Program Funds, Clifton Gunderson found:

        The financial statements were presented fairly, in all material respects, in conformity with accounting
        principles generally accepted in the United States of America;

        PBGC did not have effective internal control over financial reporting (including safeguarding assets)
        and compliance with laws and regulations and its operations as of September 30, 2010. Three
        significant deficiencies were identified in PBGC’s (1) entity-wide security program planning and
        management, (2) access controls and configuration management, and (3) integrated financial
        management systems. The combination of significant deficiencies in PBGC’s internal control is
        considered to be a material weakness.

        No instances of reportable noncompliance with tested laws and regulations.

Clifton Gunderson is responsible for the accompanying auditor’s report dated November 12, 2010, and the
conclusions expressed in the report. We do not express opinions on PBGC’s financial statements or internal
control, nor do we draw conclusions on compliance with laws and regulations.
This report (AUD-2011-2/FA-10-69-1) is also available on our website at http://oig.pbgc.gov.

Sincerely,


Rebecca Anne Batts
Inspector General

November 12, 2010
              Audit of the Pension Benefit Guaranty Corporation’s
               Fiscal Year 2010 and 2009 Financial Statements

                     Audit Report AUD-2011-2/FA-10-69-1




                                    Contents


Section I:      Independent Auditor’s Report

Section II:     Pension Benefit Guaranty Corporation’s
                Fiscal Year 2010 and 2009 Financial Statements

Section III:    Management Comments




                                   Acronyms

BPD             Bureau of Public Debt
C&A             Certification and Accreditation
CAP             Corrective Action Plan
CFS             Consolidated Financial System
ERISA           Employee Retirement Income Security Act of 1974
FIPS PUB        Federal Information Processing Standards Publication
FMFIA           Federal Managers’ Financial Integrity Act of 1982
FY              Fiscal Year
IAA             Interagency Agreement
ISA             Interconnection Security Agreement
IT              Information Technology
MOU             Memorandum of Understanding
NIST SP         National Institute of Standards and Technology Special Publication
OIG             Office of Inspector General
OMB             Office of Management and Budget
PBGC            Pension Benefit Guaranty Corporation
PLUS            Pension Lump Sum
SOC             Security Operation Center
U.S.C.          United States Code
Audit of the Pension Benefit Guaranty Corporation’s
 Fiscal Year 2010 and 2009 Financial Statements

      Audit Report AUD-2011-2/FA-10-69-1




                    Section I

       Independent Auditor’s Report
a1
                                      Independent Auditor’s Report


To the Board of Directors, Management,
 and Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC


In our audits of the Single-Employer and Multiemployer Program Funds administered by the
Pension Benefit Guaranty Corporation (PBGC) for fiscal years 2010 and 2009, we found:

•     The financial statements are presented fairly, in all material respects, in conformity with
      accounting principles generally accepted in the United States of America.

•     PBGC did not have effective internal control over financial reporting (including safeguarding
      assets) and compliance with laws and regulations and its operations as of
      September 30, 2010.

•     No reportable noncompliance in fiscal year 2010 with laws and regulations we tested.

The following sections discuss in more detail (1) these conclusions, (2) our conclusions on other
accompanying information, (3) our audit objectives, scope, and methodology, and (4)
management comments and our evaluation.

                                    Opinion on Financial Statements

The financial statements, including the accompanying notes, present fairly, in all material
respects, in conformity with accounting principles generally accepted in the United States of
America, the financial position of the Single-Employer and Multiemployer Program Funds
administered by PBGC as of September 30, 2010 and 2009, and the results of their operations
and cash flows for the fiscal years then ended.

By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining. As
of September 30, 2010, PBGC reported in its financial statements net deficit positions (liabilities
in excess of assets) in the Single-Employer and Multiemployer Program Funds of $21,594
million and $1,436 million, respectively. As discussed in Note 9 to the financial statements, loss
exposure for the Single-Employer and Multiemployer Programs that are reasonably possible as
a result of unfunded vested benefits are estimated to be $169,744 million and $20,000 million,
respectively. Management based the Single-Employer Program estimate on data for fiscal years
ending in calendar 2009 that was obtained from filings and submissions to the government and
from corporate annual reports. A subsequent adjustment for economic conditions through



11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106


                                                                                    h
tel: 301-931-2050
fax: 301-931-1710
                                                  1
www.cliftoncpa.com
September 30, 2010, has not been made and as a result the exposure to loss for the
Single-Employer Program as of September 30, 2010 could be substantially different. In addition,
PBGC’s net deficit and long-term viability could be further impacted by losses from plans
classified as reasonably possible (or from other plans not yet identified as potential losses) as a
result of deteriorating economic conditions, the insolvency of a large plan sponsor or other
factors. PBGC has been able to meet their short-term benefit obligations. However, as
discussed in Note 1 to the financial statements, management believes that neither program at
present has the resources to fully satisfy PBGC’s long-term obligations to plan participants.

                                  Opinion on Internal Control

Because of the effect of the material weakness described below on the achievement of the
objectives of the control criteria contained in 31 U.S.C. 3512 (c), (d), the Federal Managers’
Financial Integrity Act of 1982 (FMFIA), PBGC has not maintained effective internal control over
financial reporting (including safeguarding assets) and compliance with laws and regulations
and its operations as of September 30, 2010.

We identified certain deficiencies in internal control over financial reporting (including
safeguarding assets) and compliance with laws and regulations and its operation that we
consider significant deficiencies, which constitute a material weakness. This material weakness
adversely affects PBGC’s ability to meet the internal control objectives listed in the objectives,
scope, and methodology section of this report, or meet Office of Management and Budget
(OMB) criteria for reporting matters under FMFIA.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A significant deficiency is a
deficiency or a combination of deficiencies in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. We noted
significant deficiencies in the following areas, which combined constitute a material weakness:

   1. Entity-wide Security Program Planning and Management
   2. Access Controls and Configuration Management
   3. Integrated Financial Management Systems

A material weakness is a deficiency, or a combination of deficiencies, in internal control such
that there is a reasonable possibility that a material misstatement of the entity's financial
statements will not be prevented, or detected and corrected on a timely basis.


                                  ********************************

MATERIAL WEAKNESS

PBGC protects the pensions of approximately 44 million workers and retirees in more than
27,500 private defined benefit pension plans. Under Title IV of the Employee Retirement Income
Security Act of 1974, PBGC insures, subject to statutory limits, pension benefits of participants
in covered private defined benefit pension plans in the United States. To accomplish its mission
and prepare its financial statements, PBGC relies extensively on information technology (IT).
Internal controls over these operations are essential to ensure the confidentiality, integrity, and
availability of critical data while reducing the risk of errors, fraud, and other illegal acts.

                                                 2
Our review of IT controls covered general and selected business process application controls.
General controls are the structure, policies, and procedures that apply to an entity’s overall
computer systems. They include entity-wide security management, access controls,
configuration management, segregation of duties and contingency planning controls. Business
process application controls are those controls over the completeness, accuracy, validity,
confidentiality, and availability of transactions and data during application processing.

Our review also included the integration of financial management systems to ensure effective
and efficient interrelationships. These interrelationships include common data elements,
common transaction processing, consistent internal controls, and transaction entry.

PBGC’s systemic security control weaknesses and the lack of an integrated financial
management system continued to pose an increasing and substantial risk to PBGC’s ability to
carry out its mission during fiscal year 2010. PBGC’s key decision makers are acutely aware of
the challenges facing the Corporation in addressing fundamental weaknesses in its IT
infrastructure and environment. Management has therefore taken a multiyear approach to
correct these deficiencies at the root cause level. However, in past years, communication
between PBGC’s key decision makers did not convey the urgent need for decisive strategic
decisions to correct fundamental weaknesses in PBGC’s IT infrastructure and environment.
Strategic IT decisions did not address these deficiencies, and significant weaknesses identified
in prior years, continued to persist.

PBGC’s decentralized approach to system development and configuration management has
exacerbated control weaknesses and encouraged inconsistency in implementing strong
technical controls and best practices. The influx of 620 plans for over 800,000 participants from
2002-2005, contributed to PBGC’s disjointed IT development and implementation strategy. The
mandate to meet PBGC’s mission objectives by implementing technologies to receive the influx
of plans superseded proper enterprise planning and IT security controls. The result was a series
of stovepipe solutions built upon unplanned and poorly integrated heterogeneous technologies
with varying levels of obsolescence.

The Corporation has now embarked on a more coherent strategy and cost effective approach to
resolving and correcting these fundamental IT weaknesses. PBGC has developed and is
implementing a multi-year corrective action plan (CAP) to address security issues at the root
cause level. However, PBGC management realizes these weaknesses will continue to pose a
threat to its environment for several years while corrective actions are being implemented.
PBGC will need to implement interim corrective actions to ensure fundamental security
weaknesses do not worsen as the CAP is being implemented.

PBGC has entered into an interagency agreement (IAA) with the Bureau of Public Debt (BPD)
of the Department of the Treasury to assist PBGC in revising and strengthening its security
management program and certification and accreditation process. The multi-year CAP includes
the implementation of a more effective Certification and Accreditation (C&A) process,
addressing fundamental security weaknesses and initiating an IT infrastructure modernization
program. In fiscal year 2010, PBGC procured and implemented new hardware in its
infrastructure, as it works towards modernization of its IT infrastructure. Additional future actions
include completing PBGC’s Enterprise Architecture segment.

Our current year audit work continued to find deficiencies in the areas of security management,
access controls, configuration management, and segregation of duties. Control deficiencies
were also found in policy administration, and the C&As of major applications and general

                                                 3
support systems. An effective entity-wide security management program requires a coherent
strategy for the architecture of the IT infrastructure, and the deployment of systems. The
implementation of a coherent strategy provides the basis and foundation for the consistent
application of policy, controls, and best practices. PBGC first needs to develop and implement a
framework to improve their security posture. This framework will require time for effective control
processes to mature.

Based on our findings, we are reporting that significant deficiencies in the following areas
constitute a material weakness for fiscal year 2010:

   1. Entity-wide security program planning and management
   2. Access controls and configuration management
   3. Integrated financial management systems

A Summary of the significant deficiencies and related recommendations follows.

1. Entity-wide Security Program Planning and Management

   An entity-wide information security management program is the foundation of a security
   control structure and a reflection of senior management’s commitment to addressing
   security risks. The security management program should establish a framework and
   continuous cycle of activity for assessing risk, developing and implementing effective
   security procedures, and monitoring the effectiveness of these procedures. Overall policies
   and plans are developed at the entity-wide level. System and application-specific
   procedures and controls implement the entity-wide policy. Through the Federal Information
   Security Management Act of 2002, Congress requires each Federal agency to establish an
   agency-wide information security program to provide security to the information and
   information systems that support the operations and assets of the agency, including those
   managed by a contractor or other agency. OMB Circular No. A-130, Appendix III, Security of
   Federal Automated Information Resources, requires agencies to implement and maintain a
   program to assure that adequate security is provided for all agency information collected,
   processed, transmitted, stored, or disseminated in general support systems and major
   applications.

   During fiscal year 2010, PBGC made strategic decisions to develop and implement a multi-
   year CAP to address fundamental weaknesses in its entity-wide security program planning
   and management. PBGC entered into an IAA for the services of the BPD to assist the
   Corporation in reassessing its security program and developing a framework for
   implementing a more coherent strategy for correcting fundamental IT security weaknesses
   at the root cause level. However, in past years, communication between PBGC’s key
   decision makers did not convey the urgent need for decisive strategic decisions to correct
   fundamental weaknesses in PBGC’s IT infrastructure and environment. Strategic IT
   decisions did not address these deficiencies, and significant weaknesses continued to
   persist. PBGC management realizes these weaknesses will continue to pose a threat to its
   environment for several years while corrective actions are being implemented.

   PBGC abandoned its C&A documentation and is working with BPD to revise and strengthen
   its C&A process to ensure security weaknesses are addressed at the root cause level.
   PBGC did not conduct any C&As in fiscal year 2010. The Corporation has implemented a
   multi-year plan to correct its C&As.


                                                4
   In prior years, PBGC’s entity-wide security program lacked focus and a coordinated effort to
   adequately resolve control deficiencies. These deficiencies, which continue to persist,
   prevent PBGC from implementing effective security controls to protect its information from
   unauthorized access, modification, and disclosure.

   Without a well-designed and fully implemented information security management program,
   there is increased risk that security controls are inadequate; responsibilities are unclear,
   misunderstood, and improperly implemented; and controls are inconsistently applied. Such
   conditions may lead to insufficient protection of sensitive or critical resources and
   disproportionately high expenditures for controls over low-risk resources.

   Recommendations:

   PBGC management should develop and implement a well-designed security management
   program that will provide security to the information and information systems that support
   the operations and assets of the Corporation, including those managed by contractors or
   other Federal agencies.

   PBGC management should effectively communicate to key decision makers the state of its
   IT infrastructure and environment to facilitate the prioritization of resources to address
   fundamental weaknesses.

2. Access Controls and Configuration Management

   Although access controls and configuration management controls are an integral part of an
   effective information security management program, access controls remain a systemic
   problem throughout PBGC. PBGC’s decentralized approach to system development, system
   deployments, and configuration management created an environment that lacks a cohesive
   structure in which to implement controls and best practices. Weaknesses in the IT
   environment contributed significantly to deficiencies in system configuration, segregation of
   duties, role-based access controls, and monitoring. Furthermore, PBGC’s information
   systems are overlapping and duplicative, employing obsolete and antiquated technologies
   that are costly to maintain. The state of PBGC’s IT environment led to increased IT staffing
   needs, manual workarounds, reconciliations, extensive manipulation, and excessive manual
   processing that have been ineffective in providing adequate compensating controls to
   mitigate system control weaknesses. For example, the Financial Reporting and Account
   Analysis Group manually records present value of future benefits liabilities for single
   employer and multiemployer programs in Consolidated Financial System (CFS), and the
   Financial Operations Department manually records Premium Income, Premium
   Receivables, and Unearned Premiums in CFS.

   Access controls should be in place to consistently limit, detect inappropriate access to
   computer resources (data, equipment, and facilities), or monitor access to computer
   programs, data, equipment, and facilities. These controls protect against unauthorized
   modification, disclosure, loss, or impairment. Such controls include both logical and physical
   security controls to ensure that Federal employees and contractors will be given only the
   access privileges necessary to perform business functions. Federal Information Processing
   Standards Publication (FIPS PUB) 200, Minimum Security Requirements for Federal
   Information and Information Systems, specifies minimum access controls for Federal
   systems. FIPS PUB 200 requires PBGC’s information system owners to limit information
   system access to authorized users.

                                               5
   Industry best practices, National Institute of Standards and Technology (NIST) special
   publication (SP) 800-64, Security Considerations in the System Development Life Cycle,
   and other Federal guidance recognize the importance of configuration management when
   developing and maintaining a system or network. Through configuration management, the
   composition of a system is formally defined and tracked to ensure that an unauthorized
   change is not introduced. Changes to an information system can have a significant impact
   on the security of the system. Documenting information system changes and assessing the
   potential impact on the security of the system, on an ongoing basis, is an essential aspect of
   maintaining the security posture. An effective entity-wide configuration management and
   control policy and associated procedures are essential to ensuring adequate consideration
   of the potential security impact of specific changes to an information system. Configuration
   management and control procedures are critical to establishing an initial baseline of
   hardware, software, and firmware components for the entity and subsequently controlling
   and maintaining an accurate inventory of any changes to the system.

   Inappropriate access and configuration management controls do not provide PBGC with
   sufficient assurance that financial information and financial assets are adequately
   safeguarded from inadvertent or deliberate misuse, fraudulent use, improper disclosure, or
   destruction.

   PBGC management realizes these weaknesses will continue to pose a threat to its
   environment for several years while corrective actions are being implemented. PBGC
   developed a CAP that is a three to five year holistic approach starting in July 2010. The CAP
   has been broken into several process families to address the underlying root causes of the
   findings.

   Recommendation:

   PBGC management should develop and implement a coherent strategy for correcting IT
   infrastructure deficiencies and a framework for implementing common security controls, and
   mitigating the systemic issues related to access control by strengthening system
   configurations and user account management for all of PBGC’s information systems.

3. Integrated Financial Management Systems

   The risk of inaccurate, inconsistent, and redundant data is increased because PBGC lacks a
   single integrated financial management system. The current system cannot be readily
   accessed and used by financial and program managers without extensive manipulation,
   excessive manual processing, and inefficient balancing of reports to reconcile
   disbursements, collections, and general ledger data.

   OMB Circular A-127, Financial Management Systems, requires that Federal financial
   management systems be designed to provide for effective and efficient interrelationships
   between software, hardware, personnel, procedures, controls, and data contained within the
   systems. This Circular states:

      The term "single, integrated financial management system" means a unified set of
      financial systems and the financial portions of mixed systems encompassing the
      software, hardware, personnel, processes (manual and automated), procedures,
      controls and data necessary to carry out financial management functions, manage

                                               6
    financial operations of the agency and report on the agency's financial status to central
    agencies, Congress and the public. Unified means that the systems are planned for and
    managed together, operated in an integrated fashion, and linked together electronically
    in an efficient and effective manner to provide agency-wide financial system support
    necessary to carry out the agency's mission and support the agency's financial
    management needs.

OMB’s Office of Federal Financial Management, formerly the Joint Financial Management
Improvement Program, “Core Financial System Requirements” document, lists the following
integrated financial management system attributes:

•   Standard data classifications (definition and formats) established and used for recording
    financial events.
•   Common processes used for processing similar kinds of transactions.
•   Internal controls over data entry, transaction processing, and reporting that are applied
    consistently.
•   A system design that eliminates unnecessary duplication of transaction entry.

Because PBGC has not integrated its financial systems, PBGC’s ability to accurately and
efficiently accumulate and summarize information required for internal and external financial
reporting is impacted.

If managed effectively, IT investments can have a dramatic impact on an organization’s
performance and accountability. If not correctly managed, they can result in wasteful
spending and lost opportunities for achieving mission goals and improving mission
performance. PBGC had several false starts in modernizing its systems and applications
that have either been abandoned, such as the suspension of work on the Premium and
Practitioner System to replace the Premium Accounting System, or have been ineffective in
leading to the integration of its financially significant systems. Unless PBGC develops and
implements a well designed IT architecture and infrastructure to guide and constrain
modernization projects, it risks investing time and resources in systems that do not reflect
the Corporation’s priorities, are not well integrated, are potentially duplicative, and do not
optimally support mission operations and performance.

To its credit, PBGC began to develop an overall strategy, but much work remains before the
strategy can be completed and implemented. Steps PBGC has taken include the following:

1. PBGC identified all systems that provide data required to prepare the financial
   statements.
2. PBGC substantially completed the logical database model including standard data
   definitions and formats to be used throughout the Corporation.
3. PBGC completed alternative analysis studies for Premium Accounting and CFS.

Major work remains to be completed to set the foundation for an integrated financial
management system, including the development and implementation of new IT system
solutions/functions in accordance with the Financial Management Segment Architecture and
strategic system plan.




                                            7
    Recommendation:

    PBGC needs to develop and execute a plan to integrate its financial management systems
    in accordance with OMB Circular A-127.

                            Compliance with Laws and Regulations

Our tests of PBGC’s compliance with selected provisions of laws and regulations for fiscal year
2010 disclosed no instances of noncompliance that would be reportable under U.S. generally
accepted government auditing standards or OMB audit guidance. However, the objective of our
audit was not to provide an opinion on overall compliance with laws and regulations.
Accordingly, we do not express such an opinion.

This conclusion is intended solely for the information and use of PBGC’s Office of Inspector
General, Board of Directors, management of PBGC, Government Accountability Office, Office of
Management and Budget, the United States Congress, and the President and is not intended to
be and should not be used by anyone other than these specified parties.

                             Objectives, Scope, and Methodology

PBGC’s management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States of America; (2) establishing,
maintaining, and evaluating the effectiveness of internal control to provide reasonable
assurance that the broad control objectives of FMFIA are met; its assertion of the internal
control over financial reporting included in PBGC’s fiscal year 2010 Annual Report; and
(3) complying with applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether (1) the financial
statements are presented fairly, in all material respects, in conformity with accounting principles
generally accepted in the United States of America; and (2) management maintained effective
internal control as of September 30, 2010 based on management’s assertion included in
PBGC’s fiscal year 2010 Annual Report and on the criteria contained in FMFIA, the objectives of
which are the following:

•   Financial reporting: Transactions are properly recorded, processed, and summarized to
    permit the preparation of financial statements in conformity with accounting principles
    generally accepted in the United States of America, and assets are safeguarded against
    loss from unauthorized acquisition, use, or disposition.

•   Compliance with applicable laws and regulations: Transactions are executed in accordance
    with laws and regulations that could have a direct and material effect on the financial
    statements and any other laws, regulations, and government wide policies identified by
    OMB audit guidance.

We are also responsible for testing compliance with selected provisions of laws and regulations
that have a direct and material effect on the financial statements, and laws for which OMB audit
guidance requires testing and performing limited procedures with respect to certain other
information appearing in PBGC’s fiscal year 2010 Annual Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements; (2) assessed the accounting principles

                                                 8
used and significant estimates made by management; (3) evaluated the overall presentation of
the financial statements; (4) obtained an understanding of the entity and its operations, including
its internal control related to financial reporting (including safeguarding assets) and compliance
with laws and regulations; (5) tested relevant internal control over financial reporting (including
safeguarding assets) and compliance, and evaluated the design and operating effectiveness of
internal control for the fiscal year ended September 30, 2010; (6) considered the design of the
process for evaluating and reporting on internal control and financial management systems
under FMFIA; and (7) tested compliance for fiscal year 2010 with selected provisions of laws
and regulations that have a direct and material effect on the financial statements.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of its inherent limitations, internal control over financial reporting may not
prevent, or detect and correct misstatements. Also, projections of any evaluation of
effectiveness to future periods are subject to the risk that controls may become inadequate
because of changes in conditions, or that the degree of compliance with the policies or
procedures may deteriorate.

We did not test compliance with all laws and regulations applicable to PBGC. We limited our
tests of compliance to selected provisions of laws and regulations that have a direct and
material effect on the financial statements, and to those required by OMB audit guidance that
we deemed applicable to the financial statements for the fiscal year ended September 30, 2010.
We caution that noncompliance may occur and not be detected by these tests and that such
testing may not be sufficient for other purposes.

We conducted our audits and examinations in accordance with auditing standards generally
accepted in the United States of America; Government Auditing Standards, issued by the
Comptroller General of the United States; attestation standards established by the American
Institute of Certified Public Accountants; and OMB audit guidance. We believe that our audits
and examinations provide a reasonable basis for our opinions.

We considered the material weaknesses identified above in determining the nature, timing, and
extent of our audit procedures on the 2010 financial statements.

                         Management Comments and Our Evaluation

In commenting on the draft of this report (see Section III of this report), PBGC’s management
concurred with the facts and conclusions in our report. We did not perform audit procedures on
PBGC’s written response and, accordingly, we express no opinion on it.


A1
Calverton, Maryland
November 12, 2010




                                                9
  Audit of the Pension Benefit Guaranty Corporation’s
   Fiscal Year 2010 and 2009 Financial Statements

        Audit Report AUD-2011-2/FA-10-69-1




                     Section II

    Pension Benefit Guaranty Corporation’s
Fiscal Year 2010 and 2009 Financial Statements
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                Single-Employer        Multiemployer         Memorandum
                                                                    Program              Program                Total

                                                                    September 30,           September 30,       September 30,
(Dollars in millions)                                              2010     2009            2010    2009       2010     2009

ASSETS

Cash and cash equivalents                                      $ 4,442 $ 3,747         $      6 $      5    $ 4,448 $ 3,752

Securities lending collateral (Notes 3 and 5)                     5,791        2,507          0        0      5,791     2,507

Investments, at market (Notes 3 and 5):
     Fixed maturity securities                                  39,789        33,025       1,607    1,436    41,396    34,461
     Equity securities                                          22,393        22,954          0        0     22,393    22,954
     Private equity                                               2,050        1,237          0        0      2,050     1,237
     Real estate and real estate investment trusts                 459          596           0        0       459       596
     Other                                                           17         507           0        0         17      507
     Total investments                                          64,708        58,319       1,607    1,436    66,315    59,755



Receivables, net:
     Sponsors of terminated plans                                    11          85           0        0         11       85
     Premiums (Note 11)                                            754          601           2        2       756       603
     Sale of securities                                           1,589        1,829          0        0      1,589     1,829
     Derivative contracts (Note 4)                                   78          69           0        0        78        69
     Investment income                                              418         394          12       16       430       410
     Other                                                            5           3           0        0         5         3
     Total receivables                                            2,855        2,981         14       18      2,869     2,999


Capitalized assets, net                                              31          29            1       0        32        29


Total assets                                                   $77,827       $67,583   $1,628      $1,459   $79,455   $69,042

The accompanying notes are an integral part of these financial statements.




                                                                       1
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                  Single-Employer           Multiemployer         Memorandum
                                                                      Program                 Program                Total

                                                                      September 30,           September 30,          September 30,
(Dollars in Millions)                                                2010     2009            2010    2009          2010     2009


LIABILITIES


Present value of future benefits, net (Note 6):
     Trusteed plans                                             $ 88,021 $ 80,506       $        1 $        1   $ 88,022 $ 80,507
     Plans pending termination and trusteeship                       501        601             0           0       501       601
     Settlements and judgments                                        55         58             0           0        55        58
     Claims for probable terminations                              1,445      1,870             0           0     1,445     1,870
     Total present value of future benefits, net                  90,022     83,035              1          1    90,023    83,036



Present value of nonrecoverable future
     financial assistance (Note 7)                                                          3,030       2,296     3,030     2,296
Derivative contracts (Note 4)                                         67        111             0           0        67       111
Due for purchases of securities                                    3,076      1,922             0           0     3,076     1,922
Payable upon return of securities loaned                           5,791      2,507             0           0     5,791     2,507
Securities sold under repurchase agreements                              0      643             0           0         0       643
Unearned premiums                                                    364        355            31         31        395       386
Accounts payable and accrued expenses (Note 8)                       101         87             2           0       103        87
Total liabilities                                                 99,421     88,660         3,064       2,328   102,485    90,988

Net position                                                     (21,594)    (21,077)       (1,436)     (869)   (23,030)   (21,946)

Total liabilities and net position                              $ 77,827 $ 67,583       $ 1,628        $1,459   $ 79,455 $ 69,042

The accompanying notes are an integral part of these financial statements.




                                                                     2
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                                              Single-Employer                      Multiemployer                      Memorandum
                                                                 Program                             Program                             Total

                                                           For the Years Ended                  For the Years Ended                For the Years Ended
                                                             September 30,                        September 30,                      September 30,
(Dollars in Millions)                                       2010                    2009         2010                 2009          2010                    2009
UNDERWRITING
Income:
    Premium, net (Note 11)                          $      2,231             $    1,822     $      93        $         95     $    2,324         $        1,917
    Other                                                     30                     16             0                    2            30                     18
    Total                                                  2,261                  1,838            93                  97          2,354                  1,935
Expenses:
    Administrative                                           368                    368            12                    0           380                    368
    Other                                                     (7)                    15             0                    0             (7)                   15
    Total                                                    361                    383            12                    0           373                    383
Other underwriting activity:
    Losses from completed and
     probable terminations (Note 12)                         509                  4,234             0                    0           509                  4,234
    Losses from financial
     assistance (Note 7)                                                                          831                 614            831                    614
    Actuarial adjustments (credits) (Note 6)              (1,190)                  (573)            0                    0         (1,190)                 (573)
    Total                                                   (681)                 3,661           831                 614            150                  4,275
Underwriting gain (loss)                                   2,581                  (2,206)        (750)                (517)         1,831                 (2,723)


FINANCIAL:
Investment income (loss) (Note 13):
    Fixed                                                  5,233                  4,479           183                 121           5,416                 4,600
    Equity                                                 2,116                  2,015             0                    0          2,116                 2,015
    Private equity                                           404                   (158)            0                    0           404                   (158)
    Other                                                   (159)                     (6)           0                    0           (159)                    (6)
    Total                                                  7,594                  6,330           183                 121          7,777                  6,451
Expenses:
    Investment                                                81                     49             0                    0             81                    49
    Actuarial charges (Note 6):
     Due to passage of time                                4,215                  3,923             0                    0          4,215                 3,923
     Due to change in interest rates                       6,396                 10,551             0                    0         6,396                 10,551
    Total                                                 10,692                 14,523             0                    0         10,692                14,523
Financial income (loss)                                   (3,098)                 (8,193)         183                 121          (2,915)                (8,072)
Net loss                                                    (517)                (10,399)        (567)                (396)        (1,084)               (10,795)


Net position, beginning of year                          (21,077)                (10,678)         (869)               (473)       (21,946)               (11,151)
Net position, end of year                           $    (21,594)            $   (21,077)   $   (1,436)      $        (869)   $   (23,030)       $       (21,946)

The accompanying notes are an integral part of these financial statements.


                                                                                       3
PENSION BENEFIT GUARANTY CORPORATION
  STATEMENTS OF CASH FLOWS
                                                                      Single-Employer                 Multiemployer               Memorandum
                                                                           Program                       Program                      Total
                                                                     For the Years Ended           For the Years Ended        For the Years Ended
   (Dollars in millions)                                                September 30,                  September 30,                September 30,
  ____________________________________________________            ______2010 ____2009             ____2010 ____2009            ____2010     _2009
   OPERATING ACTIVITIES:

     Premium receipts                                             $        2,086 $ 1,431          $        93   $      94     $     2,179 $ 1,525
     Interest and dividends received                                       1,989    2,305                 73            77          2,062    2,382
     Cash received from plans upon trusteeship                                81      368                   0            0             81      368
     Receipts from sponsors/non-sponsors                                     241      188                   0            0            241      188
     Receipts from the missing participant program                             3        7                   0            0              3         7
     Other receipts                                                            5       15                   0            0              5        15
     Benefit payments – trusteed plans                                    (5,284) (4,337)                   0            0         (5,284) (4,337)
     Financial assistance payments                                                                      (97)          (86)            (97)      (86)
     Settlements and judgments                                                 0              0            0             0              0         0
     Payments for administrative and other expenses                         (409)         (424)          (11)            0           (420)    (424)
     Accrued interest paid on securities purchased                          (313)         (776)           (7)         (42)           (320)    (818)
   Net cash provided (used) by operating activities (Note 15)             (1,601)       (1,223)           51           43          (1,550)  (1,180)

   INVESTING ACTIVITIES:

     Proceeds from sales of investments                                71,459    152,267               1,039        3,234          72,498   155,501
     Payments for purchases of investments                            (69,163) (149,036)              (1,089)       (3,292)       (70,252) (152,328)
     Net change in investment of securities lending collateral          3,284     (1,265)                  0             0           3,284   (1,265)
     Net change in securities lending payable                          (3,284)      1,265                  0             0          (3,284)   1,265
   Net cash provided (used) by investing activities                     2,296       3,231                (50)          (58)          2,246    3,173

   Net increase (decrease) in cash and cash equivalents                     695          2,008             1          (15)        696   1,993
   Cash and cash equivalents, beginning of year                           3,747          1,739             5           20       3,752   1,759
   Cash and cash equivalents, end of year                         $       4,442     $    3,747    $        6    $       5     $ 4,448 $ 3,752


   The accompanying notes are an integral part of these financial statements




                                                                      4
                                  NOTES TO FINANCIAL STATEMENTS

                                       September 30, 2010 and 2009


Note 1: Organization and Purpose
     The Pension Benefit Guaranty Corporation (PBGC or the Corporation) is a federal corporation created by Title IV
of the Employee Retirement Income Security Act of 1974 (ERISA) and is subject to the provisions of the Government
Corporation Control Act. Its activities are defined in ERISA as amended by the Multiemployer Pension Plan
Amendments Act of 1980, the Single-Employer Pension Plan Amendments Act of 1986, the Pension Protection Act of
1987, the Retirement Protection Act of 1994, the Consolidated Appropriations Act, 2001, the Deficit Reduction Act of
2005, and the Pension Protection Act of 2006. The Corporation insures the pension benefits, within statutory limits, of
participants in covered single-employer and multiemployer defined benefit pension plans.
    ERISA requires that PBGC programs be self-financing. ERISA provides that the U.S. Government is not liable for
any obligation or liability incurred by PBGC.
     For financial statement purposes, PBGC divides its business activity into two broad areas – “Underwriting Activity”
and “Financial Activity” – covering both single-employer and multiemployer program segments. PBGC’s Underwriting
Activity provides financial guaranty insurance in return for insurance premiums (whether actually paid or not). Actual
and expected probable losses that result from the termination of underfunded pension plans are included in this
category, as are actuarial adjustments based on changes in actuarial assumptions, such as mortality. Financial Activity
consists of the performance of PBGC’s assets and liabilities. PBGC’s assets consist of premiums collected from defined
benefit plan sponsors, assets from distress or involuntarily terminated plans that PBGC has insured, and recoveries from
the former sponsors of those terminated plans. PBGC’s future benefit liabilities consist of those future benefits, under
statutory limits, that PBGC has assumed following distress or involuntary terminations. Gains and losses on PBGC’s
investments and changes in the value of PBGC’s future benefit liabilities (e.g., actuarial charges such as changes in
interest rates and passage of time) are included in this area.
      As of September 30, 2010, the single-employer and multiemployer programs reported net positions of $(21.6)
billion and $(1.4) billion, respectively. The single-employer program had assets of over $77.8 billion offset by total
liabilities of $99.4 billion, which include a total present value of future benefits (PVFB) of approximately $90.0 billion.
As of September 30, 2010, the multiemployer program had assets over $1.6 billion offset by approximately $3.0 billion in
present value of nonrecoverable future financial assistance. Notwithstanding these deficits, the Corporation has
sufficient liquidity to meet its obligations for a significant number of years; however, neither program at present has the
resources to fully satisfy PBGC’s long-term obligations to plan participants.
      PBGC’s $71.2 billion of total investments (including cash and investment income) represents the largest component
of PBGC’s Statements of Financial Condition combined assets of $79.5 billion at September 30, 2010. This amount of
$71.2 billion (as compared to investments under management of $66.8 billion, as reported on page 31) reflects the fact
that PBGC experiences a recurring inflow of trusteed plan assets that have not yet been incorporated into the PBGC
investment program. For total investments (i.e., not the investment program), cash and fixed-income securities ($46.3
billion) represents 65 percent of the total investments, while equity securities ($22.4 billion) represents 31 percent of
total investments. Private market assets ($2.5 billion), comprised largely of private equity, private debt, and real estate,
represent 4 percent of the total investments.

Single-Employer and Multiemployer Program Exposure
     PBGC’s best estimate of the total underfunding in plans sponsored by companies with credit ratings below
investment grade, and which were classified by PBGC as reasonably possible of termination as of September 30, 2010,
was $170 billion. The comparable estimates of reasonably possible exposure for 2009 and 2008 were $168 billion and
$47 billion, respectively. These estimates are measured as of December 31 of the previous year (see Note 9). For 2010,


                                                             5
this exposure is concentrated in the following sectors: manufacturing (primarily automobile/auto parts, and primary and
fabricated metals), transportation (primarily airlines), services, and wholesale and retail trade.
     PBGC estimates that, as of September 30, 2010, it is reasonably possible that multiemployer plans may require
future financial assistance in the amount of $20 billion. As of September 30, 2009 and 2008, these exposures were
estimated at $326 million and $30 million, respectively. The significant increase in FY 2010 from prior years is primarily
due to the addition of two large plans to the reasonably possible inventory. The sponsor of one plan, with net liability of
$15.0 billion, is in the “transportation, communication, and utilities” industry category; the other, with net liability of
$4.8 billion, is in the “agriculture, mining, and construction” industry category.
     There is significant volatility in plan underfunding and sponsor credit quality over time, which makes long-term
estimation of PBGC’s expected claims difficult. This volatility, and the concentration of claims in a relatively small
number of terminated plans, have characterized PBGC’s experience to date and will likely continue. Among the factors
that will influence PBGC’s claims going forward are economic conditions affecting interest rates, financial markets, and
the rate of business failures.
    PBGC’s sources of information on plan underfunding are the most recent Section 4010 and PBGC premium filings,
and other submissions to the Corporation. PBGC publishes Table S-49, “Various Measures of Underfunding in PBGC-
Insured Plans,” in its Pension Insurance Data Book where the limitations of the estimates are fully and appropriately
described.
     Under the single-employer program, PBGC is liable for the payment of guaranteed benefits with respect only to
underfunded terminated plans. An underfunded plan may terminate only if PBGC or a bankruptcy court finds that one
of the four conditions for a distress termination, as defined in ERISA, is met or if PBGC involuntarily terminates a plan
under one of five specified statutory tests. The net liability assumed by PBGC is generally equal to the present value of
the future benefits payable by PBGC less amounts provided by the plan’s assets and amounts recoverable by PBGC
from the plan sponsor and members of the plan sponsor’s controlled group, as defined by ERISA.
      Under the multiemployer program, if a plan becomes insolvent, it receives financial assistance from PBGC to allow
the plan to continue to pay participants their guaranteed benefits. PBGC recognizes assistance as a loss to the extent
that the plan is not expected to be able to repay these amounts from future plan contributions, employer withdrawal
liability or investment earnings. Since multiemployer plans do not receive PBGC assistance until fully insolvent,
financial assistance is almost never repaid; for this reason such assistance is fully reserved.




                                                            6
Note 2: Significant Accounting Policies

Basis of Presentation
     The accompanying financial statements have been prepared in accordance with accounting principles generally
accepted in the United States of America (GAAP). The preparation of the financial statements in conformity with
GAAP requires management to make estimates and assumptions that affect the reported amounts of assets and liabilities
and disclosure of contingent assets and liabilities at the date of the financial statements and the reported amounts of
revenues and expenses during the reporting period. Estimates and assumptions may change over time as new
information is obtained or subsequent developments occur. Actual results could differ from those estimates.

Recent Accounting Developments
     During FY 2010, PBGC implemented FASB Accounting Standards Update No. 2010-06, Fair Value Measurements
and Disclosures (Topic 820) – Improving Disclosures about Fair Value Measurements (ASU 2010-06) and FASB Accounting
Standards Update No. 2009-12, Fair Value Measurements and Disclosures (Topic 820) – Investments in Certain Entities That
Calculate Net Asset Value per Share (or Its Equivalent), as amended (ASU 2009-12). ASU 2010-06 added disclosures for
significant transfers between Levels 1 and 2; separate presentation for transfers into and transfers out of Level 3; class of
assets and liabilities; and valuation techniques for Levels 2 and 3. ASU 2009-12 permits, as a practical expedient, a
reporting entity to measure the fair value of an investment on the basis of net asset value (NAV) per share. ASU 2009-
12 requires disclosures by class of NAV investment including the attributes of the investments, such as: the nature of
any restrictions on the investor’s ability to redeem its investments at the measurement date; any unfunded commitments;
and the investment strategies of the investees.
      During FY 2009, PBGC implemented three Statement of Financial Accounting Standards (SFAS), including FASB
Accounting Standards Codification (ASC), Fair Value Measurements and Disclosures (Topic 820), SFAS No. 157, Fair Value
Measurements; FASB ASC, Derivatives and Hedging (Topic 815), SFAS No. 161, Disclosures about Derivative Instruments and
Hedging Activities; FASB ASC Subsequent Events (Topic 855), SFAS No. 165, Subsequent Events; and two FASB Staff
Positions (FSP), FASB ASC Fair Value Measurements and Disclosures (Topic 820), No. FAS 157-3, Determining the Fair Value
of a Financial Asset When the Market for That Asset Is Not Active and FASB ASC Fair Value Measurements and Disclosures
(Topic 820), FSP No. FAS 157-4, Determining Fair Value When the Volume and Level of Activity for the Asset or Liability Have
Significantly Decreased and Identifying Transactions That Are Not Orderly.
      FASB ASC Fair Value Measurements and Disclosures (Topic 820), SFAS No. 157 defines fair value, establishes a
framework for measuring fair value, outlines a fair value hierarchy based on the inputs to valuation techniques used to
measure fair value, and expands financial statement disclosures about fair value measurements. See Note 5 for specifics
regarding fair value measurements. FASB ASC Derivatives and Hedging (Topic 815), SFAS No. 161 requires enhanced
disclosures about an entity’s derivative and hedging activities. FASB ASC Subsequent Events (Topic 855), SFAS No. 165
codifies the guidance regarding the disclosure of events occurring subsequent to the balance sheet date and does not
change the definition of a subsequent event (i.e., an event or transaction that occurs after the balance sheet date but
before the financial statements are issued) but requires disclosure of the date through which subsequent events were
evaluated when determining whether adjustment to or disclosure in the financial statements is required. FASB ASC Fair
Value Measurements and Disclosures (Topic 820), FSP No. FAS 157-3 clarifies the application of FASB ASC Fair Value
Measurements and Disclosures (Topic 820), SFAS No. 157 in an inactive market, without changing its existing principles.
FASB ASC Fair Value Measurements and Disclosures (Topic 820), FSP No. FAS 157-4 provides guidance for estimating fair
value when the volume and level of activity for an asset or liability have decreased significantly.



Valuation Method
     A primary objective of PBGC’s financial statements is to provide information that is useful in assessing PBGC’s
present and future ability to ensure that its plan beneficiaries receive benefits when due. Accordingly, PBGC values its
financial assets at estimated fair value, consistent with the standards for pension plans contained in the FASB
Accounting Standards Codification Section 960 (formerly SFAS No. 35, Accounting and Reporting by Defined Benefit Pension
Plans). PBGC values its liabilities for the present value of future benefits and present value of nonrecoverable future
financial assistance using assumptions derived from annuity prices from insurance companies, as described in the

                                                              7
Statement of Actuarial Opinion. As described in Section 960, the assumptions are “those assumptions that are inherent
in the estimated cost at the (valuation) date to obtain a contract with an insurance company to provide participants with
their accumulated plan benefits.” Also, in accordance with Section 960, PBGC selects assumptions for expected
retirement ages and the cost of administrative expenses in accordance with its best estimate of anticipated experience.
     The FASB Accounting Standards Codification Section 820 (formerly SFAS No. 157) defines fair value, establishes a
framework for measuring fair value in GAAP, and expands disclosures about fair value measurements. Section 820
applies to accounting pronouncements that require or permit fair value measurements. Prior to Section 820, there were
different definitions of fair value with limited guidance for applying those definitions in GAAP; additionally, the issuance
for applying fair value was dispersed among many accounting pronouncements that require fair value measurement.

Revolving and Trust Funds
     PBGC accounts for its single-employer and multiemployer programs’ revolving and trust funds on an accrual basis.
Each fund is charged its portion of the benefits paid each year. PBGC includes totals for both the revolving and trust
funds for presentation purposes in the financial statements; however, the single-employer and multiemployer programs
are separate programs by law and, therefore, PBGC also reports them separately.
     ERISA provides for the establishment of the revolving fund where premiums are collected and held. The assets in
the revolving fund are used to cover deficits incurred by plans trusteed and to provide funds for financial assistance.
The Pension Protection Act of 1987 created a single-employer revolving (7th) fund that is credited with all premiums in
excess of $8.50 per participant, including all penalties and interest charged on these amounts, and its share of earnings
from investments. This fund may not be used to pay PBGC’s administrative costs or the benefits of any plan terminated
prior to October 1, 1988, unless no other amounts are available.
    The trust funds include assets (e.g., pension plan investments) PBGC assumes (or expects to assume) once a
terminated plan has been trusteed, and related investment income. These assets generally are held by custodian banks.
The trust funds support the operational functions of PBGC.
      The trust funds reflect accounting activity associated with: (1) trusteed plans – plans for which PBGC has legal
responsibility – the assets and liabilities are reflected separately on PBGC’s Statements of Financial Condition, the
income and expenses are included in the Statements of Operations and Changes in Net Position and the cash flows
from these plans are included in the Statements of Cash Flows, and (2) plans pending termination and trusteeship –
plans for which PBGC has begun the process for termination and trusteeship by fiscal year-end – the assets and
liabilities for these plans are reported as a net amount on the liability side of the Statements of Financial Condition under
“Present value of future benefits, net.” For these plans, the income and expenses are included in the Statements of
Operations and Changes in Net Position, but the cash flows are not included in the Statements of Cash Flows, and (3)
probable terminations – plans that PBGC determines are likely to terminate and be trusteed by PBGC – the assets and
liabilities for these plans are reported as a net amount on the liability side of the Statements of Financial Condition under
“Present value of future benefits, net.” The accrued loss from these plans is included in the Statements of Operations
and Changes in Net Position as part of “Losses from completed and probable terminations.” The cash flows from
these plans are not included in the Statements of Cash Flows. PBGC cannot exercise legal control over a plan’s assets
until it becomes trustee.

Allocation of Revolving and Trust Funds
     PBGC allocates assets, liabilities, income and expenses to each program’s revolving and trust funds to the extent
that such amounts are not directly attributable to a specific fund. Revolving fund investment income is allocated on the
basis of each program’s average cash and investments available during the year while the expenses are allocated on the
basis of each program’s present value of future benefits and present value of nonrecoverable future financial assistance.
Revolving fund assets and liabilities are allocated according to the year-end balance of each program’s revolving funds.
Plan assets acquired by PBGC and commingled at PBGC’s custodian bank are credited directly to the appropriate fund
while the earnings and expenses on the commingled assets are allocated to each program’s trust funds on the basis of
each trust fund’s value, relative to the total value of the commingled fund.

Cash and Cash Equivalents
    Cash includes cash on hand and demand deposits. Cash equivalents are investments with original maturities of one
business day and highly liquid investments that are readily convertible into cash within one business day.
                                                             8
Securities Lending Collateral
     PBGC participates in a securities lending program administered by its custodian bank. The custodian bank requires
collateral that equals 102 percent to 105 percent of the securities lent. The collateral is held by the custodian bank. In
addition to the lending program managed by the custodian bank, some of PBGC’s investment managers are authorized
to invest in securities purchased under resale agreements (an agreement with a commitment by the seller to buy a
security back from the purchaser at a specified price at a designated future date), and securities sold under repurchase
agreements. The manager either receives cash as collateral or pays cash out to be used as collateral. Any cash collateral
received is invested by PBGC’s investment agent.

Investment Valuation and Income
     PBGC bases market values on the last sale of a listed security, on the mean of the “bid-and-ask” for nonlisted
securities or on a valuation model in the case of fixed income securities that are not actively traded. These valuations are
determined as of the end of each fiscal year. Purchases and sales of securities are recorded on the trade date. In
addition, PBGC invests in and discloses its derivative investments in accordance with the guidance contained in the
FASB Accounting Standards Codification Section 815 (formerly SFAS No. 133, Accounting for Derivative Instruments and
Hedging Activities, as amended). Investment income is accrued as earned. Dividend income is recorded on the ex-dividend
date. Realized gains and losses on sales of investments are calculated using first-in, first-out for the revolving fund and
average cost for the trust fund. PBGC marks the plan’s assets to market and any increase or decrease in the market
value of a plan’s assets occurring after the date on which the plan is terminated must, by law, be credited to or suffered
by PBGC.

Securities Purchased Under Resale Agreements
     Securities purchased under resale agreements are agreements whereby the purchaser agrees to buy securities from
the seller, and subsequently sell them back at a pre-agreed price and date. Those greater than one day are reported under
“Fixed maturity securities” as “Securities purchased under resale agreements” in the Note 3 table entitled “Investments
of Single-Employer Revolving Funds and Single-Employer Trusteed Plans,” on page 56. Resale agreements that mature
in one day are included in “Cash and cash equivalents” which are reported on the Statements of Financial Condition.

Sponsors of Terminated Plans
     The amounts due from sponsors of terminated plans or members of their controlled group represent the settled,
but uncollected, claims for employer liability (underfunding as of date of plan termination) and for contributions due
their plan less an allowance for estimated uncollectible amounts. PBGC discounts any amounts expected to be received
beyond one year for time and risk factors. Some agreements between PBGC and plan sponsors provide for contingent
payments based on future profits of the sponsors. The Corporation will report any such future amounts in the period
they are realizable. Income and expenses related to amounts due from sponsors are reported in the underwriting section
of the Statements of Operations and Changes in Net Position. Interest earned on settled claims for employer liability
and due and unpaid employer contributions (DUEC) is reported as “Income: Other.” The change in the allowances for
uncollectible employer liability and DUEC is reported as “Expenses: Other.”

Premiums
     Premiums receivable represent the estimated earned but unpaid portion of the premiums for plans that have a plan
year commencing before the end of PBGC’s fiscal year and past due premiums deemed collectible, including penalties
and interest. The liability for unearned premiums represents an estimate of payments received during the fiscal year that
cover the portion of a plan’s year after PBGC’s fiscal year-end. In FY 2009, PBGC began reporting “Premium income,
net” on the Statements of Operations and Changes in Net Position. “Premium income, net” represents actual and
estimated revenue generated from defined benefit pension plan premium filings as required by Title IV of ERISA less
bad debt expense for termination premiums that are reserved at 100 percent, interest, and penalties (see Note 11).

Capitalized Assets
     Capitalized assets include furniture and fixtures, electronic processing equipment and internal-use software. This
includes costs for internally developed software incurred during the application development stage (system design


                                                             9
including software configuration and software interface, coding, testing including parallel processing phase). These costs
are shown net of accumulated depreciation and amortization.

Present Value of Future Benefits (PVFB)
     The PVFB is the estimated liability for future pension benefits that PBGC is or will be obligated to pay the
participants of trusteed plans and the net liability for plans pending termination and trusteeship. The PVFB liability
(including trusteed plans as well as plans pending termination and trusteeship) is stated as the actuarial present value of
estimated future benefits less the present value of estimated recoveries from sponsors and members of their controlled
group and the assets of plans pending termination and trusteeship as of the date of the financial statements. PBGC also
includes the estimated liabilities attributable to plans classified as probable terminations as a separate line item in the
PVFB (net of estimated recoveries and plan assets). PBGC uses assumptions to adjust the value of those future
payments to reflect the time value of money (by discounting) and the probability of payment (by means of decrements,
such as for death or retirement). PBGC also includes anticipated expenses to settle the benefit obligation in the
determination of the PVFB. PBGC’s benefit payments to participants reduce the PVFB liability.
     The values of the PVFB are particularly sensitive to changes in underlying estimates and assumptions. These
estimates and assumptions could change and the impact of these changes may be material to PBGC’s financial
statements (see Note 6).
    (1) Trusteed Plans–represents the present value of future benefit payments less the present value of expected
recoveries (for which a settlement agreement has not been reached with sponsors and members of their controlled
group) for plans that have terminated and been trusteed by PBGC prior to fiscal year-end. Assets are shown separately
from liabilities for trusteed plans.
     (2) Pending Termination and Trusteeship–represents the present value of future benefit payments less the plans’ net
assets (at fair value) anticipated to be received and the present value of expected recoveries (for which a settlement
agreement has not been reached with sponsors and members of their controlled group) for plans for which termination
action has been initiated and/or completed prior to fiscal year-end. Unlike trusteed plans, the liability for plans pending
termination and trusteeship is shown net of plan assets.
    (3) Settlements and Judgments–represents estimated liabilities related to settled litigation.
      (4) Net Claims for Probable Terminations–In accordance with the FASB Accounting Standards Codification
Section 450 (formerly SFAS No. 5, Accounting for Contingencies), PBGC recognizes net claims for probable terminations
with $50 million or more of underfunding, which represent PBGC’s best estimate of the losses, net of plan assets and
the present value of expected recoveries (from sponsors and members of their controlled group) for plans that are likely
to terminate in the future. These estimated losses are based on conditions that existed as of PBGC’s fiscal year-end.
Management believes it is likely that one or more events subsequent to PBGC’s fiscal year-end will occur, confirming the
loss. Criteria used for classifying a specific plan as a probable termination include, but are not limited to, one or more of
the following conditions: the plan sponsor is in liquidation or comparable state insolvency proceeding with no known
solvent controlled group member; sponsor has filed or intends to file for distress plan termination and the criteria will
likely be met; or PBGC is considering the plan for involuntary termination. In addition, management takes into account
other economic events and factors in making judgments regarding the classification of a plan as a probable termination.
These events and factors may include, but are not limited to: the plan sponsor is in bankruptcy or has indicated that a
bankruptcy filing is imminent; the plan sponsor has stated that plan termination is likely; the plan sponsor has received a
going concern opinion from its independent auditors; or the plan sponsor is in default under existing credit
agreement(s).
    In addition, a reserve for small unidentified probable losses and incurred but not reported (IBNR) claims is
recorded based on an actuarial loss development methodology (ratio method) (see Note 6).
     (5) PBGC identifies certain plans as high-risk if the plan sponsor is in Chapter 11 proceedings or the sponsor’s
senior unsecured debt is rated CCC+/Caa1 or lower by S&P or Moody’s respectively. PBGC specifically reviews each
plan identified as high-risk and classifies those plans as probable if, based on available evidence, PBGC concludes that
plan termination is likely (based on criteria described in (4) above). Otherwise, high-risk plans are classified as
reasonably possible.
     (6) In accordance with Section 450, PBGC’s exposure to losses from plans of companies that are classified as
reasonably possible is disclosed in the footnotes. In order for a plan sponsor to be specifically classified as reasonably

                                                             10
possible, it must first have $5 million or more of underfunding, as well as meet additional criteria. Criteria used for
classifying a company as reasonably possible include, but are not limited to, one or more of the following conditions: the
plan sponsor is in Chapter 11 reorganization; funding waiver pending or outstanding with the Internal Revenue Service;
sponsor missed minimum funding contribution; sponsor’s bond rating is below-investment-grade for Standard & Poor’s
(BB+) or Moody’s (Ba1); sponsor has no bond rating but unsecured debt is below investment grade; or sponsor has no
bond rating but the ratio of long-term debt plus unfunded benefit liability to market value of shares is 1.5 or greater (see
Note 9).

Present Value of Nonrecoverable Future Financial Assistance
    In accordance with Title IV of ERISA, PBGC provides financial assistance to multiemployer plans, in the form of
loans, to enable the plans to pay guaranteed benefits to participants and reasonable administrative expenses. These
loans, issued in exchange for interest-bearing promissory notes, constitute an obligation of each plan.
     The present value of nonrecoverable future financial assistance represents the estimated nonrecoverable payments
to be provided by PBGC in the future to multiemployer plans that will not be able to meet their benefit obligations. The
present value of nonrecoverable future financial assistance is based on the difference between the present value of future
guaranteed benefits and expenses and the market value of plan assets, including the present value of future amounts
expected to be paid by employers, for those plans that are expected to require future assistance. The amount reflects the
rates at which, in the opinion of management, these liabilities (net of expenses) could be settled in the market for single-
premium nonparticipating group annuities issued by private insurers (see Note 7).
     A liability for a particular plan is included in the “Present Value of Nonrecoverable Future Financial Assistance”
when it is determined that the plan is currently, or will likely become in the future, insolvent and will require assistance
to pay the participants their guaranteed benefit. Determining insolvency requires considering several complex factors,
such as an estimate of future cash flows, future mortality rates, and age of participants not in pay status.
    Each year, PBGC analyzes insured multiemployer plans to identify those plans that are at risk of becoming claims
on the insurance program. Regulatory filings with PBGC and the other ERISA agencies are important to this analysis
and determination of risk. For example, a multiemployer plan that no longer has contributing employers files a notice of
termination with PBGC. In general, if a terminated plan’s assets are less than the present value of its liabilities, PBGC
considers the plan a probable risk of requiring financial assistance in the future.
     PBGC also analyzes ongoing multiemployer plans (i.e., plans that continue to have employers making regular
contributions for covered work) to determine whether any such plans may be probable or possible claims on the
insurance program. In conducting this analysis each year, PBGC examines plans that are chronically underfunded, have
poor cash flow trends, a falling contribution base, and that may lack a sufficient asset cushion to weather temporarily
income losses. A combination of these factors, or any one factor that is of sufficient concern, leads to a more detailed
analysis of the plan’s funding and the likelihood that the contributing employers will be willing and able to maintain the
plan.

Securities Sold Under Repurchase Agreements
      Securities sold under repurchase agreements are agreements with a commitment by the seller to buy a security back
from the purchaser at a specified price and designated future date. These agreements represent collateralized short-term
loans for which the collateral may be a treasury security, money market instrument, federal agency security, or mortgage-
backed security. On the Statements of Financial Condition, securities sold under repurchase agreements are reported as
a liability, “Securities sold under repurchase agreements” at the amounts at which the securities will be subsequently
reacquired.

Administrative Expenses
     These operating expenses (for either the single-employer or multiemployer insurance programs) are amounts paid
and accrued for services rendered or while carrying out other activities that constitute PBGC’s ongoing operations, e.g.,
payroll, contractual services, office space, material and supplies, etc. In FY 2010, PBGC revised its administrative
expense allocation methodology to ensure each insurance program continued to receive its fair share of administrative
expenses. (This resulted in some prior single-employer indirect costs being moved to the multiemployer program).
During FY 2010, resource activity levels in the multiemployer program rose significantly in the areas of financial
assistance processing, field audits of newly insolvent plans, additional actuarial analysis of ongoing and terminated
                                                             11
multiemployer plans, and responding to a growing number of technical and legal requests from plan administrators and
practitioners. The revised expense allocation methodology fully captures these and all other administrative expenses
attributable to either the single-employer or multiemployer insurance programs.

Other Expenses
     These expenses represent an estimate of the net amount of receivables deemed to be uncollectible during the
period. The estimate is based on the most recent status of the debtor (e.g., sponsor), the age of the receivables and other
factors that indicate the element of uncollectibility in the receivables outstanding.

Losses from Completed and Probable Terminations
     Amounts reported as losses from completed and probable terminations represent the difference as of the actual or
expected date of plan termination (DOPT) between the present value of future benefits (including amounts owed under
Section 4022(c) of ERISA) assumed, or expected to be assumed, by PBGC, less related plan assets and the present value
of expected recoveries from sponsors and members of their controlled group (see Note 12). When a plan terminates,
the previously recorded probable net claim is reversed and newly estimated DOPT plan assets, recoveries and PVFB are
netted and reported on the line PVFB - Plans pending termination and trusteeship (this value is usually different than the
amount previously reported), with any change in the estimate being recorded in the Statements of Operations and
Changes in Net Position. In addition, the plan’s net income from date of plan termination to the beginning of PBGC’s
fiscal year is included as a component of losses from completed and probable terminations for plans with termination
dates prior to the year in which they were added to PBGC’s inventory of terminated plans.

Actuarial Adjustments and Charges (Credits)
     PBGC classifies actuarial adjustments related to changes in method and the effect of experience as underwriting
activity; actuarial adjustments are the result of the movement of plans from one valuation methodology to another, e.g.,
nonseriatim (calculating the liability for the group) to seriatim (calculating separate liability for each person), and of new
data (e.g., deaths, revised participant data). Actuarial charges (credits) related to changes in interest rates and passage of
time is classified as financial activity. These adjustments and charges (credits) represent the change in the PVFB that
results from applying actuarial assumptions in the calculation of future benefit liabilities (see Note 6).

Depreciation and Amortization
     PBGC calculates depreciation on the straight-line basis over estimated useful lives of 5 years for equipment and 10
years for furniture and fixtures. PBGC calculates amortization for capitalized software, which includes certain costs
incurred for purchasing and developing software for internal use, on the straight-line basis over estimated useful lives
not to exceed 5 years, commencing on the date that the Corporation determines that the internal-use software is
implemented. Routine maintenance and leasehold improvements (the amounts of which are not material) are charged to
operations as incurred. Capitalization of software cost occurs during the development stage and costs incurred during
the preliminary project and post-implementation stages are expensed as incurred.

Reclassification
     Certain amounts in the FY 2009 single-employer financial statements have been reclassified to be consistent with
the FY 2010 presentation. All such changes had no impact on the FY 2009 single-employer net position.



Note 3: Investments
     Premium receipts are invested through the revolving fund in U.S. Treasury securities. The trust funds include assets
PBGC assumes or expects to assume with respect to terminated plans (e.g., recoveries from sponsors) and investment
income thereon. These assets generally are held by custodian banks. The basis and market value of the investments by
type are detailed below as well as related investment profile data. The basis indicated is cost of the asset if assumed after
the date of plan termination or the market value at date of plan termination if the asset was assumed as a result of a
plan’s termination. PBGC marks the plan’s assets to market and any increase or decrease in the market value of a plan’s
assets occurring after the date on which the plan is terminated must, by law, be credited to or suffered by PBGC.

                                                              12
Investment securities denominated in foreign currency are translated into U.S. dollars at the prevailing exchange rates at
period end. Purchases and sales of investment securities, income, and expenses are translated into U.S. dollars at the
prevailing exchange rates on the respective dates of the transactions. The portfolio does not isolate that portion of the
results of operations resulting from changes in foreign exchange rates of investments from the fluctuations arising from
changes in market prices of securities held. Such fluctuations are included with the net realized and unrealized gain or
loss on investments. For PBGC’s securities, unrealized holding gains and losses are both recognized by including them
in earnings. Unrealized holding gains and losses measure the total change in fair value – consisting of unpaid interest
income earned or unpaid accrued dividend and the remaining change in fair value from holding the security.
     To Be Announced (TBA) and Bond Forward transactions are recorded as regular buys and sells of investments and
not as derivatives. TBA (to be announced) is a contract for the purchase or sale of mortgage-backed securities to be
delivered on a future date. The term TBA is derived from the fact that the actual mortgage-backed security that will be
delivered to fulfill a TBA trade is not designated at the time the trade is made. The securities are to be announced 48
hours prior to the established trade settlement date. TBAs are issued by FHLMC, FNMA, and GNMA. In accordance
with FASB Accounting Standards Codification Section 815 (formerly SFAS No. 133, paragraphs 275 and 276), TBA and
Bond Forward contracts are deemed regular way trades as they are completed within the time frame generally established
by regulations and conventions in the market place or by the exchange on which they are executed. Thus, recording of
TBA and Bond Forward contracts recognizes the acquisition or disposition of the securities at the full contract amounts
on day one of the trade.
      In prior years, foreign exchange forward contracts and swap contracts were recorded gross of receivables and
payables. Beginning in FY 2010, foreign exchange forwards are included in “Fixed maturity securities” rather than
“Receivables, net – Derivative contracts” or “Derivative contracts” (liabilities). Swaps are netted rather than recorded at
gross levels for the individual contracts as “Receivables, net – Derivative contracts” and “Derivative contracts”
(liabilities). Certain amounts shown as futures for receivables and payables were offset to reflect a net margin variation
for one recently trusteed plan. Bond forwards and TBAs have been reclassified to “Receivables, net – Sale of securities”
and “Due for purchases of securities” from derivative contracts receivables and payables. In order to support year-to-
year comparisons, the FY 2009 balances were reclassified to be consistent with the FY 2010 presentation. All such
changes had no impact on the FY 2009 net income or net position.
     Certain investments (i.e., public equities and other investments) for two recently trusteed plans have been
reclassified at September 30, 2009. However, there was no change in the yearend amount of total investments. In
addition, investment income (i.e., fixed income, public equities, and other investments) for two recently trusteed plans
has been reclassified at September 30, 2009 without any change in either overall FY 2009 investment income or in
overall net position at September 30, 2009.
     PBGC obtained a recovery in the form of an ownership interest in a new entity, emerging from a chapter 11
bankruptcy proceeding. As of September 30, 2010, this interest was valued as private equity in the amount of $702
million. This current valuation may change significantly over time.
     As the following table illustrates, the market value of investments of the single-employer program increased
significantly from September 30, 2009, to September 30, 2010.




                                                            13
INVESTMENTS OF SINGLE-EMPLOYER REVOLVING FUNDS
AND SINGLE-EMPLOYER TRUSTEED PLANS
                                                                               September 30,                           September 30,
                                                                                     2010                                  2009
                                                                                          Market                                        Market
(Dollars in millions)                                                          Basis       Value                   Basis                 Value
Fixed maturity securities:
   U.S. Government securities                                              $19,652          $21,288             $16,620                $17,282
   Commercial paper/securities purchased                                        199              199                  49                   49
    under resale agreements
   Asset backed securities                                                    2,681            2,733              2,844                  2,728
   Pooled funds
        Domestic                                                                476              481              1,306                  1,359
        International                                                              0                0                  0                    0
        Global/other                                                               0                0                  0                    0
   Corporate bonds and other                                                  9,250           10,168              8,450                  8,633
   International securities                                                   4,492            4,920              2,720                  2,974
  Subtotal                                                                   36,750           39,789             31,989                 33,025
Equity securities:
   Domestic
   Public equity                                                              1,760            1,824                888                   857
   International                                                                940            1,083                374                   386
   Pooled
   Private funds
           equity
        Domestic                                                              7,256           10,778              9,639                 12,726
        International                                                         5,765            8,691              6,928                  8,985
        Global/other                                                              15               17                  0                    0
   Subtotal                                                                  15,736           22,393             17,829                 22,954
Private equity                                                                2,169            2,050              1,471                  1,237
Real estate and real estate investment trusts                                   441              459                637                   596
Insurance contracts and other investments                                        22              17                 479                    507
Total*                                                                      $55,118         $64,708     **      $52,405                $58,319

*Total includes securities on loan at September 30, 2010, and September 30, 2009, with a market value of $5.674 billion and $2.450
billion, respectively.
**This total of $64,708 million of investments at market value represents the single-employer assets only. It differs from the total
investments of $71.19 billion shown on page 30 of this report which includes investments of the multiemployer program, cash and
cash equivalents and accrued investment income.

INVESTMENTS OF MULTIEMPLOYER REVOLVING FUNDS AND MULTIEMPLOYER TRUSTEED PLANS
                                                                               September 30,                           September 30,
                                                                                     2010                                  2009
                                                                                          Market                                        Market
(Dollars in millions)                                                          Basis       Value                   Basis                 Value
Fixed maturity securities:
   U.S. Government securities                                                 $1,478           $1,607             $1,382                $1,436
Equity securities                                                                  0                0                  0                     0
Total                                                                         $1,478           $1,607             $1,382                $1,436


                                                                 14
         INVESTMENT PROFILE
                                                                                         September 30,
                                                                                     2010                2009
           Fixed Income Assets
           Average Quality                                                           AA                  AA
           Average Maturity (years)                                                 15.5                 14.7
           Duration (years)                                                          9.9                  9.7
           Yield to Maturity (%)                                                     3.8                  4.7
           Equity Assets
           Average Price/Earnings Ratio                                             18.4                 25.5
           Dividend Yield (%)                                                        2.3                  2.3
           Beta                                                                     1.03                 1.04



Derivative Instruments
     PBGC assigns investment discretion and grants specific authority to all of its investment managers to invest
according to specific portfolio investment guidelines established with PBGC. PBGC further limits the use of derivatives
by investment managers through tailored provisions in the investment guidelines with investment managers consistent
with PBGC’s investment policy statement and overall risk tolerance. These investment managers, who act as fiduciaries
to PBGC, determine when it may or may not be appropriate to utilize derivatives in the portfolio(s) for which they are
responsible. Investments in derivatives carry many of the same risks of the underlying instruments and carry additional
risks that are not associated with direct investments in the securities underlying the derivatives. Furthermore, risks may
arise from the potential inability to terminate or sell derivative positions, although derivative instruments are generally
more liquid than physical market instruments. A liquid secondary market may not always exist for certain derivative
positions at any time. Over-the-counter derivative instruments also involve counterparty risk that the other party to the
derivative instrument will not meet its obligations.
     The use of derivatives by PBGC investment managers is restricted in-so-far as portfolios cannot utilize derivatives
to create leverage in the portfolios for which they are responsible. That is, the portfolios shall not utilize derivatives to
leverage the portfolio beyond the maximum risk level associated with a fully invested portfolio of physical securities.
     Derivative instruments are used (1) to mitigate risk (e.g., adjust duration or currency exposures), (2) to enhance
investment returns, and/or (3) as liquid and cost-efficient substitutes for positions in physical securities. These
derivative instruments are not designated as accounting hedges consistent with FASB Accounting Standards
Codification Section 815 (formerly SFAS No. 133, as amended), which requires an active designation as a prerequisite
for any hedge accounting. PBGC utilizes a no hedging designation which results in the gain or loss on a derivative
instrument to be recognized currently in earnings Derivatives are accounted for at fair market value in accordance with
the FASB Accounting Standards Codification Section 815 (formerly SFAS No. 133, as amended). Derivatives are
marked to market with changes in value reported as a component of financial income on the Statements of Operations
and Changes in Net Position. PBGC presents all derivatives at fair value on the Statements of Financial Condition.
     During fiscal years 2009 and 2010, PBGC, through its investment managers, invested in investment products that
used various U.S. and non-U.S. derivative instruments including but not limited to: S&P 500 index futures, options,
government bond futures, interest rate, credit default and total return swaps and swaption contracts, stock warrants and
rights, debt option contracts, and foreign currency forward and option contracts. Some of these derivatives are traded
on organized exchanges and thus bear minimal counterparty risk. The counterparties to PBGC’s non-exchange-traded
derivative contracts are major financial institutions subject to ISDA (International Swaps and Derivatives Association,
Inc.) master agreements. PBGC monitors its counterparty risk and exchanges collateral under most contracts to further
support performance by its counterparties.
     A futures contract is an agreement between a buyer or seller and an established futures exchange clearinghouse in
which the buyer or seller agrees to take or make a delivery of a specific amount of a financial instrument at a specified
price on a specific date (settlement date). The futures exchange and clearinghouses clear, settle, and guarantee

                                                              15
transactions occurring through its facilities. Upon entering into a futures contract, an “initial margin” amount (in cash or
liquid securities) of generally one to six percent of the face value indicated in the futures contract is required to be
deposited with the broker. Open futures positions are marked to market daily. Subsequent payments known as
“variation margin” are made or received by the portfolio dependent upon the daily fluctuations in value of the
underlying contract. PBGC maintains adequate liquidity in its portfolio to meet these margin calls. Futures contracts are
valued at the most recent settlement price.
     PBGC also invests in forward contracts. A forward foreign currency exchange contract is a commitment to
purchase or sell a foreign currency at the settlement date at a negotiated rate. Foreign currency forward and option
contracts may be used as a substitute for cash currency holdings, in order to minimize currency risk exposure to changes
in foreign currency exchange rates and to adjust overall currency exposure to reflect the investment views of the fixed
income portfolio managers regarding relationships between currencies.
     A swap is an agreement between two parties to exchange different financial returns on a notional investment
amount. The major forms of swaps traded are interest rate swaps, credit default swaps, and total return swaps. PBGC
uses swap and swaption (an option on a swap) contracts to adjust exposure to interest rates, fixed income securities
exposure, credit exposure, and equity exposure, and to generate income based on the investment views of the portfolio
managers regarding interest rates, indices and debt issues.
     Interest rate swaps involve exchanges of fixed rate and floating rate interest. Interest rate swaps are often used to
alter exposure to interest rate fluctuations, by swapping fixed rate obligations for floating rate obligations, or vice versa.
The counterparties to the swap agree to exchange interest payments on specific dates, according to a predetermined
formula. The payment flows are usually netted against each other, with one party paying the difference to the other.
     A credit default swap is a contract between a buyer and seller of protection against pre-defined credit events. The
portfolio may buy or sell credit default swap contracts to seek to increase the portfolio’s income or to mitigate the risk of
default on portfolio securities.
     A total return swap is a contract between a buyer and seller of exposures to certain asset classes such as equities.
The portfolio may buy or sell total return contracts to seek to increase or reduce the portfolio’s exposure to certain asset
classes.
    An option contract is a contract in which the writer of the option grants the buyer of the option the right to
purchase from (call option) or sell to (put option) the writer a designated instrument at a specified price within a
specified period of time.
    Stock warrants and rights allow PBGC to purchase securities at a stipulated price within a specified time limit.
     For the fiscal years ended September 30, 2010 and 2009, gains and losses from settled margin calls are reported in
Investment income on the Statements of Operations and Changes in Net Position. Securities pledged as collateral for
derivative contracts, e.g., futures and swaps, are recorded as a receivable or payable.




     Effective January 1, 2009, PBGC adopted the provisions of the FASB Accounting Standards Codification Section
815 (formerly SFAS 161, Disclosures about Derivative Instruments and Hedging Activities). This standard requires the disclosure
of fair values of derivative instruments and their gains and losses in its financial statements of both the derivative
positions existing at period end and the effect of using derivatives during the reporting period. The first table below
identifies the location of derivative fair market values (FMV) on the Statements of Financial Condition, as well as the
notional amounts, while the second table identifies the location of derivative gains and losses on the Statements of
Operations and Changes in Net Position as of September 30, 2010, and September 30, 2009.




                                                              16
FAIR VALUES OF DERIVATIVE INSTRUMENTS
                                  Asset Derivative
                                                           September 30, 2010                                    September 30, 2009
                               Statements of Financial                               Statements of Financial
(Dollars in millions)          Condition Location         Notional      FMV          Condition Location          Notional      FMV
Futures                        Derivative Contracts        $ 2,211        $2         Derivative Contracts         $ 4,321        $1

Swap agreements
  Interest rate swaps          Investments-Fixed             1,086          (7)      Investments-Fixed                939        (12)
  Credit default swaps         Investments-Fixed             2,023          10       Investments-Fixed              1,439        (18)

Option contracts               Investments-Fixed                38           4       Investments-Fixed                 22         (1)

Forwards - foreign exchange    Investments-Fixed             3,530         (32)      Investments-Fixed              1,062          4




                               Liability Derivative
                                                           September 30, 2010                                    September 30, 2009
                               Statements of Financial                               Statements of Financial
(Dollars in millions)          Condition Location         Notional     FMV           Condition Location          Notional       FMV
Futures                        Derivative Contracts        $ 1,024     $ (1)          Derivative Contracts        $ 3,392      $ (7)

Option contracts               Derivative Contracts          2,591         (11)      Derivative Contracts           1,186         (2)


  Additional information specific to derivative instruments is disclosed in Note 4 – Derivative Contracts, and Note 5 – Fair
  Value Measurements.




                                                              17
  EFFECT OF DERIVATIVE CONTRACTS ON THE STATEMENTS OF OPERATIONS
  AND CHANGES IN NET POSITION
                                                                                                    Amount of Gain or (Loss)
                                                 Location of Gain or                                Recognized in Income on
                                                 (Loss) Recognized                                          Derivatives
                                                 in Income on                                        Sept. 30,       Sept. 30,
  (Dollars in millions)                          Derivatives                                           2010            2009
  Futures
    Contracts in a receivable position           Investment Income-Fixed                                   $73              ($510)
    Contracts in a receivable position           Investment Income-Equity                                    0                 (2)
    Contracts in a payable position              Investment Income-Fixed                                    25                267
    Contracts in a payable position              Investment Income-Equity                                    0                  0

  Swap agreements
    Interest rate swaps                          Investment Income-Fixed                                     58              486
    Credit default swaps                         Investment Income-Fixed                                     19              (72)

  Option contracts
    Options purchased (long)                     Investment Income-Fixed                                     17               (21)
    Options purchased (long)                     Investment Income-Equity                                     0                 0
    Options written (sold short)                 Investment Income-Fixed                                     (4)               27
    Options written (sold short)                 Investment Income-Equity                                     0                 0

  Forward contracts
    Forwards - foreign exchange                  Investment Income-Fixed                                    (23)               61




     Additional information specific to derivative instruments is disclosed in Note 4 – Derivative Contracts and Note 5 –
Fair Value Measurements.

Securities Lending
     PBGC participates in a securities lending program administered by its custodian bank whereby the custodian bank
lends PBGC’s securities to third parties. The custodian bank requires initial collateral from the borrower that equals 102
percent to 105 percent of the securities lent. The collateral is held by the custodian bank. The manager either receives
cash as collateral or pays cash to cover mark-to-market changes. Any cash collateral received is invested. The total value
of securities on loan at September 30, 2010, and September 30, 2009, was $5.674 billion and $2.450 billion, respectively.
The increase in loan balances is a direct result of PBGC’s increased asset allocation to U.S. Government securities. The
2009 year end balance for U.S. government securities was approximately $2.2 billion or ten percent of PBGC’s overall
lendable security balance; while the 2010 year end balance for U.S. Government securities was approximately $5.2 billion
or twenty-five percent of PBGC’s overall lendable security balance. The increased asset allocation and higher utilization
levels of U.S. government securities, as compared to other lendable asset classes, resulted in the increased on loan
balance on September 30, 2010.
     The amount of cash collateral received for these loaned securities was $5.791 billion at September 30, 2010, and
$2.507 billion at September 30, 2009. These amounts are recorded as assets and are offset with a corresponding liability.
For those securities lending activities that PBGC directs through its custodian manager, the corporation chooses to
invest proceeds from securities lending in the most conservative cash collateral pools available. PBGC had earned
income from securities lending of $10.3 million and $26.2 million for the years ending September 30, 2010, and
September 30, 2009, respectively. Also contributing to PBGC’s securities lending income is its participation in certain

                                                           18
pooled index funds. Net income from securities lending is included in “Investment income – Fixed” on the Statements
of Operations and Changes in Net Position. As of September 30, 2010, PBGC loaned out $5.674 billion in securities of
approximately $21.076 billion of securities available for securities lending.
     Of the $5.674 billion market value of securities on loan at September 30, 2010, approximately 75 percent are lent
U.S. government securities and approximately 23 percent are lent U.S. corporate securities.



Note 4: Derivative Contracts
      PBGC’s derivative financial instruments are recorded at fair value and are included on the Statements of Financial
Condition as investments and derivative contracts. In prior years, foreign exchange forward contracts and swap
contracts were recorded gross of receivables and payables. Beginning in FY 2010, foreign exchange forwards are
included in “Fixed maturity securities” rather than “Receivables, net – Derivative contracts” or “Derivative contracts”
(liabilities). Swaps are netted rather than recorded at gross levels for the individual contracts as “Receivables, net –
Derivative contracts” and “Derivative contracts” (liabilities). Certain amounts shown as futures for receivables and
payables were offset to reflect a net margin variation for one recently trusteed plan. Bond forwards and TBAs have been
reclassified to “Receivables, net – Sale of securities” and “Due for purchases of securities” from derivative contracts
receivables and payables. In order to support year-to-year comparisons, the FY 2009 balances were reclassified to be
consistent with the FY 2010 presentation. All such changes had no impact on the FY 2009 net income or net position.


     Amounts in the table below represent the derivative contracts in a receivable position at financial statement date.
Collateral deposits of $76 million, which represent cash paid as collateral on certain derivative contracts, are shown.


DERIVATIVE CONTRACTS
                                                                             September 30,                         September 30,
(Dollars in millions)                                                               2010                                 2009
Open receivable trades on derivatives:
    Collateral deposits                                                                  $76                                $68
    Futures contracts                                                                      2                                  1
    Interest rate swaps                                                                    0                                  0
    Credit default swaps                                                                   0                                  0
Total                                                                                    $78                                $69




Amounts in the Derivative Contracts table below represent derivative contracts in a payable position at financial
statement date which PBGC reflects as a liability. Collateral deposits of $55 million, which represent cash received as
collateral on certain derivative contracts, are included.



                                                            19
DERIVATIVE CONTRACTS
                                                                                 September 30,                           September 30,
(Dollars in millions)                                                                   2010                                   2009
Open payable trades on derivatives:
    Collateral deposits                                                                      $55                                    $102
    Futures contracts                                                                          1                                       7
    Interest rate swaps                                                                        0                                       0
    Credit default swaps                                                                       0                                       0
    Options-fixed income                                                                      11                                       2
Total                                                                                        $67                                    $111




Note 5: Fair Value Measurements
      Effective January 1, 2009, PBGC adopted the provisions of the FASB Accounting Standards Codification Section
820 (formerly SFAS No. 157, Fair Value Measurements). The standard does not require the measurement of financial
assets and liabilities at fair value, but provides a consistent definition of fair value and establishes a framework for
measuring fair value in accordance with GAAP. The standard is intended to increase consistency and comparability in,
and disclosures about, fair value measurements, by providing users with better information about the extent to which
fair value is used to measure financial assets and liabilities, the inputs used to develop those measurements and the effect
of the measurements, if any, on financial condition, results of operations, liquidity and capital.
     Section 820 defines fair value as the price that would be received to sell an asset or paid to transfer a liability (an
“exit price”) in the principal or most advantageous market for an asset or liability in an orderly transaction between
market participants on the measurement date. When PBGC measures fair value for its financial assets and liabilities,
PBGC considers the principal or most advantageous market in which PBGC would transact, and PBGC considers
assumptions that market participants would use when pricing the asset or liability. When possible, PBGC looks to active
and observable markets to measure the fair value of identical, or similar, financial assets or liabilities. When identical
financial assets and liabilities are not traded in active markets, PBGC looks to market observable data for similar assets
and liabilities. In some instances, certain assets and liabilities are not actively traded in observable markets, and as a result
PBGC uses alternative valuation techniques to measure their fair value.
     In addition, Section 820 establishes a hierarchy for measuring fair value. The fair value hierarchy is based on the
observability of inputs to the valuation of a financial asset or liability as of the measurement date. The standard requires
the recognition of trading gains or losses related to certain derivative transactions whose fair value has been determined
using unobservable market inputs.
     PBGC believes that its valuation techniques and underlying assumptions used to measure fair value conform to the
provisions of Section 820. PBGC has categorized the financial assets and liabilities that it carries at fair value in the
Statements of Financial Condition based upon the standard’s valuation hierarchy. The hierarchy gives the highest priority
to quoted prices in active markets for identical assets or liabilities (Level 1); next highest priority to pricing methods with
significant observable market inputs (Level 2); and the lowest priority to significant unobservable valuation inputs (Level
3).
     If the inputs used to measure a financial asset or liability cross different levels of the hierarchy, categorization is
based on the lowest level input that is significant to the fair value measurement. Management’s assessment of the
significance of a particular input to the overall fair value measurement of a financial asset or liability requires judgment,
and considers factors specific to that asset or liability.
    The three levels are described below:
      Level 1 - Financial assets and liabilities whose values are based on unadjusted quoted prices for identical assets or
liabilities in an active market. PBGC’s level 1 investments primarily included are exchange-traded equity securities and
certain U.S. government securities.



                                                               20
      Level 2 - Financial assets and liabilities whose values are based on quoted prices for similar assets and liabilities in
active markets, and inputs that are observable for the asset or liability, either directly or indirectly, for substantially the
full term of the asset or liability. Level 2 inputs to the valuation methodology include the following:
          a.   Quoted prices for similar assets or liabilities in active markets – included are cash equivalents, securities
               lending collateral, U.S. government securities, asset backed securities, fixed foreign investments, corporate
               bonds, repos, bond forwards, and swaps;
          b.   Quoted prices for identical or similar assets or liabilities in non-active markets – included are corporate
               stock, pooled funds fixed income, pooled funds equity, and foreign investments equity;
          c.   Pricing models whose inputs are observable for substantially the full term of the asset or liability –
               included are insurance contracts and bank loans; and
          d.   Pricing models whose inputs are derived principally from or corroborated by observable market
               information through correlation or other means for substantially the full term of the asset or liability.
     Level 3 - Financial assets and liabilities whose values are based on prices or valuation techniques that require inputs
that are both unobservable in the market and significant to the overall fair value measurement. These inputs reflect
management’s judgment about the assumptions that a market participant would use in pricing the asset or liability, and
based on the best available information, some of which is internally developed. We include instruments whose values
are based on a single source such as a broker, pricing service, or dealer which cannot be corroborated by recent market
transactions. These include fixed maturity securities such as corporate bonds that are comprised of securities that are no
longer traded on the active market and/or not managed by any asset manager. Equity securities such as corporate stocks
are also included in this level, and are comprised of securities that are no longer traded on the active market and/or not
managed by any asset manager. Private equity, real estate funds, and separate accounts that invest primarily in U.S.
commercial real estate, are valued based on each underlying investment within the fund/account incorporating
valuations that consider the evaluation of financing and sale transactions with third parties, expected cash flows and
market-based information, including comparable transactions, and performance multiples, among other factors.
     The assets and liabilities that PBGC carries at fair value are summarized by the three levels in Section 820 in the
following table.




                                                               21
FAIR VALUE MEASUREMENTS ON A RECURRING BASIS AS OF SEPTEMBER 30, 2010
                                                                     Pricing Methods        Pricing Methods         Total Net
                                                                     with Significant       with Significant      Carrying Value
                                            Quoted Market               Observable           Unobservable         in Statements
                                            Prices in Active              Market                 Market            of Financial
                                            Markets (Level 1)        Inputs (Level 2)       Inputs (Level 3)        Condition
(Dollars in millions)
Assets

Cash and cash equivalents                        $ 450                     $ 3,998                                     $ 4,448
Securities lending collateral                                                5,791                                       5,791
Investments:
  Fixed maturity securities
    U.S. Government securities                                              22,895
    Commercial paper/securities
       purchased under resale
       agreements                                                             199
    Asset backed/Mortgage backed
     securities                                                             2,733
    Pooled funds
        Domestic                                                              150                     331
        International
        Global/other
    Corporate bonds and other                           3                  10,164                       1
    International securities                          (16)                  4,936                       -
  Total fixed maturity securities                     (13)                 41,077                     332               41,396
 Equity securities:
    Domestic                                       1,677                      142                        5
    International                                  1,083
    Pooled funds
       Domestic                                                            10,778
       International                                                        8,691
       Global/other                                   17                        -                        -
 Total equity securities                           2,777                   19,611                       5              22,393
 Private equity                                                                                     2,050               2,050
 Real estate and real estate
   investment trusts                                  7                         2                     450                 459
 Insurance contracts and other
   Investments                                                                17                                               17
Receivables:
 Derivative contracts*                                2                       76                                               78
Liabilities
Payables:
 Derivative contracts**                              12                       55                                               67
           * Derivative contracts receivables are comprised of open receivable trades on futures, forwards, TBAs, swaps, and
           collateral deposits.
           ** Derivative contracts payables are comprised of open payable trades on futures, forwards, TBAs, swaps,
           options, and collateral deposits.


                                                                22
          As of September 30, 2010, there were no significant transfers between Level 1 and Level 2. The end of the
      reporting period is the date used to recognize transfers between levels.


CHANGES IN LEVEL 3 ASSETS AND LIABILITIES MEASURED AT FAIR VALUE ON A RECURRING BASIS
FOR THE YEAR ENDED SEPTEMBER 30, 2010

                                                                                                                        Change in
                                               Total
                                                                                                                        Unrealized
                                             Realized
                                                             Purchases,                                               Gains (Losses)
                                                and
                         Fair Value at                       Issuances       Transfers   Transfers   Fair Value at      Related to
                                            Unrealized
(Dollars in millions)   September 30,                            and           Into       Out of      September         Financial
                                               Gains
                             2009                           Settlements,      Level 3     Level 3      30, 2010        Instruments
                                              (Losses)
                                                                 Net                                                     held at
                                            included in
                                                                                                                      September 30,
                                              Income
                                                                                                                         2010 **
Assets:
Pooled funds (fixed)        $ 328              $40               $ (37)                                  $ 331              $ 3
Corporate bonds
  and other *                   15                0 ***              (1)                   (13)                1              0***
Domestic equity *              305               21               (321)                      0***              5              0***
Private equity               1,233               83                734           0***                      2,050             51

Real estate &
real estate                    494              (20)                  (24)                                  450               18
investment
trusts

Other *                        441               11              (452)                                         0
          *assets which are not actively traded in the market place
          ** amounts included in the Total Realized and Unrealized Gains (Losses) column
          *** less than $500,000




                                                                 23
      Pursuant to FASB Accounting Standards Update No. 2009-12, Fair Value Measurements and Disclosures (Topic 820) –
Investments in Certain Entities That Calculate Net Asset Value per Share (or Its Equivalent) and amended by Update No. 2010-06,
Fair Value Measurement and Disclosures, additional disclosures for Investments priced at Net Asset Value are discussed
below.
INVESTMENTS IN CERTAIN ENTITIES THAT CALCULATE NET ASSET VALUE PER SHARE (OR ITS
EQUIVALENT) FOR THE YEAR ENDED SEPTEMBER 30, 2010
                                                                                 Redemption
                               Fair Value               Unfunded                 Frequency (If             Redemption
                              (in millions)           Commitments 1                Currently               Notice Period
                                                                                   Eligible)
Real estate (a)                 $    459                            $214                n/a                     n/a
Private equity (b)                 2,050                             507                n/a                     n/a
Pooled funds (c)                  19,967                               0                n/a                     n/a
Total                           $ 22,476                            $721

1 Unfunded    amounts include recallable distributions. A substantial portion of the unfunded commitments is unlikely to
be called.

         a.    This class includes 169 real estate investments that invest primarily in U.S. commercial real estate, and to a
               lesser extent, U.S. residential real estate. The fair value of each individual investment in this class has been
               estimated using the net asset value of the PBGC's ownership interest in partners' capital. Generally, these
               investments do not have redemption provisions. Distributions from each fund will be received as the
               underlying assets of the fund will be liquidated over the next ten years or so. In addition, distributions will
               also include any periodic income distributions received. No fund investments in this class are planned to
               be sold. Individual portfolio investments will be sold over time, however, those have not yet been
               determined.
         b.    This class includes 548 private market investments that invest primarily in U.S. buyout and U.S. venture
               capital funds. A small number of those focus on natural resources. These investments do not have
               redemption provisions. Instead, the nature of the investments in this class is that distributions are received
               through the liquidation of the underlying assets of the funds. If these investments were held, it is
               estimated that the underlying assets of the fund would be liquidated over the next twelve years. However,
               the individual investments that will be sold have not yet been determined. The fair value of each individual
               investment has been estimated using the net asset value of the PBGC's ownership interest in partners'
               capital.
         c.    This class includes investments in unit trusts that are intended to match returns of domestic and
               international indices. Units reflect a pro-rata share of the fund’s investments. The per unit net asset value
               is determined each business day based on the fair value of the fund’s investments. Issuances and
               redemptions are possible daily when a per unit value is determined and are based upon the closing per unit
               net asset value.



Note 6: Present Value of Future Benefits
     The following table summarizes the actuarial adjustments, charges and credits that explain how the Corporation’s
single-employer program liability for the present value of future benefits changed for the years ended September 30,
2010 and 2009.
    For FY 2010, PBGC used a 25-year select interest factor of 4.41% followed by an ultimate factor of 4.51% for the
remaining years. In FY 2009, PBGC used a 25-year select interest factor of 5.17% followed by an ultimate factor of
5.03% for the remaining years. These factors were determined to be those needed, given the mortality assumptions, to
continue to match the survey of annuity prices provided by the American Council of Life Insurers (ACLI). Both the

                                                              24
interest factor and the length of the select period may vary to produce the best fit with these prices. The prices reflect
rates at which, in the opinion of management, the liabilities (net of administrative expenses) could be settled in the
market at September 30, for the respective year, for single-premium nonparticipating group annuities issued by private
insurers. Many factors, including Federal Reserve policy, changing expectations about longevity risk, and competitive
market conditions may affect these rates.
     Beginning in FY 2006, and ending with FY 2008, a Barclays Capital Aggregate Bond Index (formerly Lehman Long
Corporate A and Higher Bond index) as of the last trading day of the month was used and was applied to both the select
and ultimate factors instead of the select factor only as had been prior practice. Interest factors beginning in FY 2006
are now rounded to two decimal places instead of one so as to be able to state to the level of a single basis point.
     In late 2008, significant volatility in the bond markets led PBGC to research the relationship between quarterly
bond yields and annuity prices. As a result of this research, PBGC ended the use of a bond index in the determination
of interest factors. The quarterly interest factors now incorporate the most recent quarterly annuity price survey data.
Previously, the price survey data was used only once a year with the bond index then applied to determine subsequent
interest factors during the year.
     For September 30, 2010, PBGC used the 1994 Group Annuity Mortality (GAM) 94 Static Table (with margins), set
forward one year and projected 26 years to 2020 using Scale AA. For September 30, 2009, PBGC used the same table
set forward one year, projected 24 years to 2018 using scale AA. The number of years that PBGC projects the mortality
table reflects the number of years from the 1994 base year of the table to the end of the fiscal year (16 years in 2010
versus 15 years in 2009) plus PBGC’s calculated duration of its liabilities (ten years in 2010 and nine years in 2009).
PBGC’s procedure is based on the procedures recommended by the Society of Actuaries UP-94 Task Force (which
developed the GAM94 table) for taking into account future mortality improvements.
     PBGC continues to utilize the results of its 2004 mortality study. The study showed that the mortality assumptions
used in FY 2003 reflected higher mortality than was realized in PBGC’s seriatim population. Therefore, PBGC adopted
a base mortality table (i.e., GAM94 set forward one year instead of GAM94 set forward two years) that better reflects
past mortality experience. The ACLI survey of annuity prices, when combined with the mortality table, provides the
basis for determining the interest factors used in calculating the PVFB. The insurance annuity prices, when combined
with the stronger mortality table, result in a higher interest factor.
     The reserve for administrative expenses in the 2006 valuations was assumed to be 1.18 percent of benefit liabilities
plus additional reserves for cases in which plan asset determinations, participant database audits and actuarial valuations
were not yet complete. As the result of an updated study, the expense reserve factor for FY 2007 has changed to 1.37
percent and carried forward to FY 2008, FY 2009 and FY 2010. The factors to determine the additional reserves were
also re-estimated and continue to be based on plan milestone completion as well as case size, number of participants and
time since trusteeship.
     The present values of future benefits for trusteed multiemployer plans for 2010 and 2009 reflect the payment of
assistance and the changes in interest and mortality assumptions, the passage of time and the effect of experience.
    The resulting liability represents PBGC’s best estimate of the measure of anticipated experience under these
programs.




                                                             25
RECONCILIATION OF THE PRESENT VALUE OF FUTURE BENEFITS
FOR THE YEARS ENDED SEPTEMBER 30, 2010 AND 2009
                                                                                                        September 30,

 (Dollars in millions)                                                               2010                                          2009
 Present value of future benefits, at beginning
       of year -- Single-Employer, net                                                      $83,035                                       $59,996
   Estimated recoveries, prior year                                                             175                                           165
   Assets of terminated plans pending trusteeship, net, prior year                              820                                           313
   Present value of future benefits at beginning of year, gross                              84,030                                        60,474
   Settlements and judgments, prior year                                                         (58)                                         (56)
   Net claims for probable terminations, prior year                                          (1,870)                                       (3,154)
   Actuarial adjustments -- underwriting:
     Changes in method and assumptions                                  $ (1,286)                                       $ (683)
     Effect of experience                                                     96                                           110
     Total actuarial adjustments -- underwriting                          (1,190)                                         (573)
   Actuarial charges -- financial:
     Passage of time                                                         4,215                                        3,923
     Change in interest rates                                                6,396                                       10,551
     Total actuarial charges -- financial                                   10,611                                       14,474
   Total actuarial charges, current year                                                      9,421                                        13,901
   Terminations:
     Current year                                                           3,130                                        15,692
     Changes in prior year                                                    (15)                                         (277)
     Total terminations                                                                       3,115                                        15,415
   Benefit payments, current year*                                                           (5,467)                                       (4,478)
   Estimated recoveries, current year                                                          (107)                                         (175)
   Assets of terminated plans pending trusteeship, net, current year                           (542)                                         (820)
   Settlements and judgments, current year                                                       55                                            58
   Net claims for probable terminations:
     Future benefits**                                                   3,073                                           4,610
     Estimated plan assets and recoveries from sponsors                 (1,628)                                         (2,740)
     Total net claims, current year                                                           1,445                                         1,870
 Present value of future benefits,
   at end of year -- Single-Employer, net                                                    90,022                                        83,035
 Present value of future benefits,
   at end of year -- Multiemployer                                                                1                                             1
 Total present value of future benefits, at end of year, net                                $90,023                                       $83,036




* The benefit payments of $5,467 million and $4,478 million include $182 million in 2010 and $140 million in 2009 for
benefits paid from plan assets by plans prior to trusteeship.
** The future benefits for probable terminations of $3,073 million and $4,610 million for fiscal years 2010 and 2009,
respectively, include $253 million and $227 million, respectively, for probable terminations not specifically identified and
$2,820 million and $4,383 million, respectively, for specifically identified probables.




                                                                       26
     The following table details the assets that make up single-employer terminated plans pending termination and
trusteeship:

 ASSETS OF SINGLE-EMPLOYER PLANS PENDING TERMINATION
 AND TRUSTEESHIP, NET
                                                               September 30, 2010                                   September 30, 2009
                                                               Basis      Market                                    Basis       Market
 (Dollars in millions)                                                      Value                                                 Value
 U.S. Government securities                                    $ 0           $ 0                                    $ 12          $ 14
 Corporate and other bonds                                      353           353                                    329           340
 Equity securities                                              270           270                                    459           455
 Private equity                                                    0            0                                      1             1
 Insurance contracts                                               0            0                                      0             0
 Other                                                           (81)         (81)                                    10            10

 Total, net                                                     $542              $542                              $811             $820




Net Claims for Probable Terminations
    Factors that are presently not fully determinable may be responsible for these claim estimates differing from actual
experience. Included in net claims for probable terminations is a provision for future benefit liabilities for plans not
specifically identified.
       The values recorded in the following reconciliation table have been adjusted to the expected dates of termination.
RECONCILIATION OF NET CLAIMS FOR PROBABLE TERMINATIONS
                                                                                         September 30,
(Dollars in millions)                                                   2010                                        2009
Net claims for probable terminations, at beginning of year                     $ 1,870                                     $3,154
New claims                                                      $ 337                                    $ 1,643
Actual terminations                                             (596)                                     (3,077)
Deleted probables                                               (376)                                        (18)
Change in benefit liabilities                                    186                                         168
Change in plan assets                                             24                                           0
Loss (credit) on probables                                                        (425)                                    (1,284)
Net claims for probable terminations, at end of year                           $ 1,445                                     $1,870



       The following table itemizes the single-employer probable exposure by industry:
PROBABLES EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)
(Dollars in millions)                                              FY 2010                     FY 2009
Manufacturing                                                      $ 911                        $1,178
Services                                                              341                          467
Health Care                                                           193                          168
Wholesale and Retail Trade                                               -                          57
Total                                                              $1,445                       $1,870


       For further detail, see Note 2 subpoint (4).




                                                             27
     The following table shows what has happened to plans classified as probables. This table does not capture or
include those plans that were not previously classified as probable before they terminated.


ACTUAL PROBABLES EXPERIENCE
As Initially Recorded Beginning in 1987
(Dollars in millions)                                            Status of Probables from 1987-2009 at September 30, 2010
                                                           Number of           Percent of                   Net           Percent of
Beginning in 1987, number of plans reported as Probable:       Plans                Plans                 Claim           Net Claim
  Probables terminated                                           358                79%                $28,050                 73%
   Probables not yet terminated or deleted                          4                1                     671                  2
   Probables deleted                                              89                20                   9,748                25
   Total                                                         451              100%                 $38,469               100%




Note 7: Multiemployer Financial Assistance
     PBGC provides financial assistance to multiemployer defined benefit pension plans in the form of loans. Since
these loans are not generally repaid, an allowance is set up to the extent that repayment of these loans is not expected.


 NOTES RECEIVABLE MULTIEMPLOYER FINANCIAL ASSISTANCE
                                                                        September 30,                                   September 30,
 (Dollars in millions)                                                       2010                                            2009

 Gross balance at beginning of year                                             $387                                                $311
 Financial assistance payments - current year                                     97                                                   86
 Write-offs related to settlement agreements                                       0                                                  (10)
 Subtotal                                                                        484                                                  387
 Allowance for uncollectible amounts                                            (484)                                                (387)
 Net balance at end of year                                                     $ 0                                                 $ 0


     The losses from financial assistance reflected in the Statements of Operations and Changes in Net Position include
period changes in the estimated present value of nonrecoverable future financial assistance.
     As of September 30, 2010, the corporation expects 121 multiemployer plans will exhaust plan assets and need
financial assistance from PBGC to pay guaranteed benefits and plan administrative expenses. The present value of
nonrecoverable future financial assistance for these 121 plans is $3.030 billion. The 121 plans fall into three categories –
plans currently receiving financial assistance; plans that have terminated but have not yet started receiving financial
assistance from PBGC; and ongoing plans (not terminated) that the corporation expects will require financial assistance
in the future.
       Of the 121 plans:

               41 have exhausted plan assets and are currently receiving financial assistance payments from PBGC.
               The present value of future financial assistance payments for these insolvent 41 plans is $1.179
               billion.

               51 plans have terminated but have not yet started receiving financial assistance payments from
               PBGC. Terminated multiemployer plans no longer have employers making regular contributions for
               covered work, though some plans continue to receive withdrawal liability payments from withdrawn

                                                                   28
           employers. In general, PBGC records a loss for future financial assistance for any underfunded
           multiemployer plan that has terminated. The present value of future financial assistance payments to
           these 51 terminated plans is $1.067 billion.

           29 plans are ongoing (i.e., have not terminated), but PBGC expects these plans will exhaust plan
           assets and need financial assistance within 10 years. In this analysis, PBGC takes into account the
           current plan assets, future income to the plan, the statutory funding rules, and the possibility for
           future increases in contributions. The present value of future financial assistance payments for these
           29 ongoing plans is $784 million.



PRESENT VALUE OF NONRECOVERABLE FUTURE FINANCIAL
ASSISTANCE AND LOSSES FROM FINANCIAL ASSISTANCE
                                                                                 September 30,                  September 30,
(Dollars in millions)                                                                 2010                            2009

Balance at beginning of year                                                         $2,296                           $1,768
Changes in allowance:
 Losses (credits) from financial assistance                                             831                                614
 Financial assistance granted
   (previously accrued)                                                                 (97)                             (86)
Balance at end of year                                                               $3,030                           $2,296



Note 8: Accounts Payable and Accrued Expenses
   The following table itemizes accounts payable and accrued expenses reported in the Statements of Financial
Condition:

ACCOUNTS PAYABLE AND ACCRUED EXPENSES
                                                                              September 30,                     September 30,
(Dollars in millions)                                                                 2010                             2009
Annual leave                                                                           $   8                           $  7
Other payables and accrued expenses                                                       95                             80
Accounts payable and accrued expenses                                                  $ 103                           $ 87




                                                         29
Note 9: Contingencies
     Single-employer plans sponsored by companies whose credit quality is below investment grade pose a greater risk of
being terminated. In addition, there are some multiemployer plans that may require future financial assistance. The
estimated unfunded vested benefits exposure amounts disclosed below represent the Corporation’s estimates of
the reasonably possible exposure to loss in these plans given the inherent uncertainties about these plans.
     In accordance with the FASB Accounting Standards Codification Section 450 (formerly SFAS No. 5), PBGC
classified a number of these companies as reasonably possible rather than probable terminations as the sponsors’
financial condition and other factors did not indicate that termination of their plans was likely. This classification was
done based upon information about the companies as of September 30, 2010.
     The estimate of unfunded vested benefits exposure to loss for the single-employer plans of these companies was
measured as of December 31, 2009. The reasonably possible exposure to loss in these plans was $170 billion for FY
2010. This is slightly more than the reasonably possible exposure of $168 billion in FY 2009. This reasonably possible
exposure remained substantially unchanged, possibly because the increase in liability due to the decrease in the interest
rate from the prior year was offset by high asset returns during calendar year 2009.
     The estimate of unfunded vested benefits exposure to loss is not based on PBGC-guaranteed benefit levels, since
data is not available to determine an estimate at this level of precision. PBGC calculated this estimate, as in previous
years, by using the most recent data available from filings and submissions to the Corporation for plan years ended on or
after December 31, 2008. The Corporation adjusted the value reported for liabilities to December 31, 2009, using a
select rate of 4.52% that was derived in conjunction with the 1994 Group Annuity Mortality Static Table (with margins)
projected to 2019 using Scale AA to approximate annuity prices as of December 31, 2009, with administrative expenses
added. The underfunding associated with these plans could be substantially different at September 30, 2010, because of
the economic conditions that existed between December 31, 2009 and September 30, 2010. The Corporation did not
adjust the estimate for events that occurred between December 31, 2009, and September 30, 2010.
       The following table by industry itemizes the single-employer reasonably possible exposure to loss:
 REASONABLY POSSIBLE EXPOSURE TO LOSS BY INDUSTRY
(PRINCIPAL CATEGORIES)
(Dollars in millions)                                                          FY 2010          FY 2009
Manufacturing *                                                              $101,888          $101,298
Transportation, Communication and Utilities **                                 30,178            30,555
Services                                                                       15,356            13,314
Wholesale and Retail Trade                                                     12,844            13,031
Health Care                                                                     3,985             4,990
Finance, Insurance, and Real Estate                                             2,840             2,140
Agriculture, Mining, and Construction                                           2,653             2,536
Total                                                                        $169,744          $167,864

* For FY 2010 and FY 2009, primarily automobile/auto parts and primary and fabricated metals

** For FY 2010 and FY 2009, primarily airline

     PBGC included amounts in the liability for the present value of nonrecoverable future financial assistance (see Note
7) for multiemployer plans that PBGC estimated may require future financial assistance. In addition, PBGC currently
estimates that it is reasonably possible that other multiemployer plans may require future financial assistance in the
amount of $20 billion, due primarily to the addition of two large plans.
     The Corporation calculated the future financial assistance liability for each multiemployer plan identified as
probable (see Note 7), or reasonably possible as the present value of guaranteed future benefit and expense payments
net of any future contributions or withdrawal liability payments as of the later of September 30, 2010, or the projected
(or actual, if known) date of plan insolvency, discounted back to September 30, 2010. The Corporation’s identification
of plans that are likely to require such assistance and estimation of related amounts required consideration of many
complex factors, such as an estimate of future cash flows, future mortality rates, and age of participants not in pay status.
These factors are affected by future events, including actions by plans and their sponsors, most of which are beyond the
Corporation’s control.

                                                                      30
Note 10: Commitments
    PBGC leases its office facility under a commitment that began on January 1, 2005, and expires December 10, 2019.
This lease provides for periodic rate increases based on increases in operating costs and real estate taxes over a base
amount. In addition, PBGC is leasing space for field benefit administrators. These leases began in 1996 and expire in
2014. The minimum future lease payments for office facilities having noncancellable terms in excess of one year as of
September 30, 2010, are as follows:

COMMITMENTS: FUTURE LEASE PAYMENTS
(Dollars in millions)
Years Ending                                                                   Operating
September 30,                                                                   Leases
2011                                                                               $ 18.3
2012                                                                                 17.4
2013                                                                                 16.6
2014                                                                                 16.2
2015                                                                                 16.5
Thereafter                                                                           69.4
Minimum lease payments                                                            $154.4


      Lease expenses were $18.4 million in 2010 and $21.4 million in 2009.


Note 11: Premiums
     For both the single-employer and multiemployer programs, ERISA provides that PBGC shall continue to guarantee
basic benefits despite the failure of a plan administrator to pay premiums when due. PBGC assesses interest and
penalties on the unpaid portion of or underpayment of premiums. Interest continues to accrue until the premium and
the interest due are paid. For plan year 2009 the flat-rate premiums for single-employer pension plans was $34 per
participant and for multiemployer plans, $9 per participant. For plan year 2010, per participant rates were $35 for single-
employer plans and $9 for multiemployer plans. PBGC recorded net premium income of $2.324 billion and consisted
primarily of $1.288 billion in flat-rate premiums, $1.030 billion in variable-rate premiums, and $237 million in
termination premiums offset by a bad debt expense of $244 million. Bad debt expenses include a reserve for
uncollectible premium receivables consisting of termination premiums that are reserved conservatively at 100 percent, as
well as some write-off of interest and penalties. Net premium income for fiscal year 2009 was $1.917 billion and
consisted primarily of approximately $1.227 billion in flat-rate premiums, $699 million in variable-rate premiums, and
$590 million in termination premiums offset by a bad debt expense of $596 million. The termination premium applies
to certain plan terminations occurring after 2005. If a pension plan terminates in a distress termination pursuant to
ERISA section 4041(c)(2)(B)(ii) or (iii), or in a PBGC-initiated termination under ERISA section 4042, the plan sponsor
and its controlled group are liable to PBGC for a termination premium at the rate of $1,250 per plan participant per year
for three years.




      The following table presents a year-to-year comparison of key premium information.




                                                            31
PREMIUMS

(Dollars in millions)                     September 30, 2010   September 30, 2009

Flat Rate Premium:                           June 30, 2010        June 30, 2009
(Dollars in millions)
Single-Employer                                  $1,194               $1,133
Multiemployer                                        94                   94
Total Flat Rate Premium                           1,288                1,227
Variable Rate Premium                             1,030                 699
Interest and Penalty Income                          13                   (3)
Termination Premium                                 237                 590
Less Write-offs of Interest, Penalties,
 and Termination Premiums                          (244)                (596)
Total                                            $2,324               $1,917

Single-Employer                                  $2,237               $1,828
Termination Premium                                 237                 590
Less Write-offs of Interest, Penalties,
 and Termination Premiums                          (243)               (596)
Total Single-Employer                             2,231               1,822
Multiemployer                                        94                  95
Less Write-offs of Interest
 and Penalties                                       (1)                  0
Total Multiemployer                                  93                  95
Total                                            $2,324              $1,917




                                            32
Note 12: Losses from Completed and Probable Terminations
    Amounts reported as losses are the present value of future benefits less related plan assets and the present value of
expected recoveries from sponsors. The following table details the components that make up the losses:


LOSSES FROM COMPLETED AND PROBABLE TERMINATIONS
SINGLE-EMPLOYER PROGRAM
                                                                                     For the Years Ended September 30,
                                                                     2010                                                        2009
                                                                  Changes in                                                  Changes in
 (Dollars in millions)                          New               Prior Year           Total                   New            Prior Year             Total
                                             Terminations        Terminations                               Terminations     Terminations
 Present value of future benefits                $ 3,130                 $ (15)       $3,115                    $15,692           $ (277)        $15,415
 Less plan assets                                 1,688                     474        2,162                      9,860                 29         9,889
 Plan asset insufficiency                          1,442                   (489)         953                      5,832               (306)        5,526
 Less estimated recoveries                             0                     16           16                          0                  10           10
 Subtotal                                          1,442*                  (505)         937                      5,832*               (316)        5,516
 Settlements and judgments                                                    (3)          (3)                                            2            2
 Loss (credit) on probables                          (596)                  171         (425)**                   (3,077)            1,793        (1,284)**
 Total                                             $ 846                  $(337)      $ 509                     $ 2,755             $1,479     $   4,234




 * gross amounts for plans terminated during the year
 ** see Note 6 – includes $596 million at September 30, 2010, and $3,077 million at September 30, 2009, previously recorded relating to plans that
 terminated during the period




                                                                        33
Note 13: Financial Income
    The following table details the combined financial income by type of investment for both the single-employer and
multiemployer programs:

     INVESTMENT INCOME SINGLE-EMPLOYER AND MULTIEMPLOYER PROGRAMS
                                  Single-Employer    Multiemployer        Memorandum       Single-Employer    Multiemployer    Memorandum
                                      Program          Program               Total             Program          Program            Total
     (Dollars in millions)          Sept. 30, 2010   Sept. 30, 2010       Sept. 30, 2010    Sept. 30, 2009    Sept. 30, 2009   Sept. 30, 2009

     Fixed maturity securities:
       Interest earned            $         1,587    $          54        $       1,641    $         1,560    $          45    $       1,605
       Realized gain (loss)                 1,527               53                1,580             (1,071)              24           (1,047)
       Unrealized gain                      2,119               76                2,195              3,990               52            4,042

     Total fixed maturity
       securities                           5,233              183                5,416              4,479              121            4,600

     Equity securities:
       Dividends earned                        52                0                   52                 30                0               30
       Realized gain (loss)                   573                0                  573               (545)               0             (545)
       Unrealized gain                      1,491                0                1,491              2,530                0            2,530

       Total equity securities              2,116                0                2,116              2,015                0            2,015

     Private equity:
       Distributions earned                   19                 0                   19                10                 0               10
       Realized gain                         373                 0                  373                24                 0               24
       Unrealized gain (loss)                 12                 0                   12              (192)                0             (192)

       Total private equity                  404                 0                  404              (158)                0             (158)

     Other income (loss)                     (159)               0                 (159)                (6)               0                (6)

     Total investment income      $         7,594    $         183        $       7,777    $         6,330    $         121    $       6,451




                                                                     34
Note 14: Employee Benefit Plans
     All permanent full-time and part-time PBGC employees are covered by the Civil Service Retirement System (CSRS)
or the Federal Employees Retirement System (FERS). Full-time and part-time employees with less than five years
service under CSRS and hired after December 31, 1983, are automatically covered by both Social Security and FERS.
Employees hired before January 1, 1984, participate in CSRS unless they elected and qualified to transfer to FERS.
     The Corporation’s contribution to the CSRS plan for both 2010 and 2009 was 7.0 percent of base pay for those
employees covered by that system. For those employees covered by FERS, the Corporation’s contribution was 11.2
percent of base pay for both 2010 and 2009. In addition, for FERS-covered employees, PBGC automatically
contributes one percent of base pay to the employee’s Thrift Savings account, matches the first three percent
contributed by the employee and matches one-half of the next two percent contributed by the employee. Total
retirement plan expenses amounted to $18 million in 2010 and $16 million in 2009.
      These financial statements do not reflect CSRS or FERS assets or accumulated plan benefits applicable to PBGC
employees. These amounts are reported by the U.S. Office of Personnel Management (OPM) and are not allocated to
the individual employers. OPM accounts for federal health and life insurance programs for those eligible retired PBGC
employees who had selected federal government-sponsored plans. PBGC does not offer other supplemental health and
life insurance benefits to its employees.



Note 15: Cash Flows
     The following two tables, one for Sales and one for Purchases, provide further details on cash flows from
investment activity. Sales and purchases of investments are driven by the level of newly trusteed plans, the unique
investment strategies implemented by PBGC’s investment managers, and the varying capital market conditions in which
they invest during the year. These cash flow numbers can vary significantly from year to year based on the fluctuation in
these three variables.


    INVESTING ACTIVITIES (SINGLE-EMPLOYER
    AND MULTIEMPLOYER PROGRAMS COMBINED)
                                          September 30,
      (Dollars in millions)                                     2010                    2009
      Proceeds from sales of investments:
         Fixed maturity securities                          $60,295                  $134,856
         Equity securities                                    5,302                     5,283
         Other/uncategorized                                  6,901                    15,362
      Memorandum total                                      $72,498                  $155,501

      Payments for purchases of investments:
         Fixed maturity securities                         $(63,937)                $(126,492)
         Equity securities                                   (4,504)                  (13,147)
         Other/uncategorized                                  (1,811)                 (12,689)
      Memorandum total                                     $(70,252)                $(152,328)




                                                           35
    The following is a reconciliation between the net income as reported in the Statements of Operations and Changes
in Net Position and net cash provided by operating activities as reported in the Statements of Cash Flows.
RECONCILIATION OF NET INCOME TO NET CASH PROVIDED
BY OPERATING ACTIVITIES
                                                           Single-Employer           Multiemployer             Memorandum
                                                               Program                  Program                    Total
                                                              September 30,           September 30,              September 30,
 (Dollars in millions)                                      2010        2009         2010       2009           2010         2009

 Net income (loss)                                       $ (517)         (10,399)   $(567)    $(396)        $(1,084)   $(10,795)
 Adjustments to reconcile net income to net cash
  provided by operating activities:
    Net (appreciation) decline in fair value of
        investments                                       (6,022)         (4,662)    (131)      (76)         (6,153)     (4,738)
    Net gain (loss) of plans pending termination and
        trusteeship                                           37             (16)      0          0             37            (16)
    Losses (credits) on completed
        and probable terminations                            509           4,234       0           0           509        4,234
    Actuarial charges (credits)                            9,421          13,901       0           0          9,421      13,901
    Benefit payments - trusteed plans                     (5,284)         (4,337)      0           0         (5,284)     (4,337)
    Settlements and judgments                                  0               0       0           0               0          0
    Cash received from plans upon trusteeship                 81             368       0           0             81         368
    Receipts from sponsors/non-sponsors                      241            188        0           0            241         188
    Amortization of discounts/premiums                        89             (39)      9          (4)             98        (43)
    Changes in assets and liabilities, net of effects
       of trusteed and pending plans:
         (Increase) decrease in receivables                 (179)          (409)       4          (9)          (175)          (418)
          Increase in present value of
            nonrecoverable future financial assistance                               734       528             734         528
          Increase in unearned premiums                        9              24       0         0                9          24
          Increase (decrease) in accounts payable             14             (76)      2         0               16         (76)
 Net cash provided (used) by operating activities        $(1,601)        $(1,223)   $ 51      $ 43          $(1,550)    $(1,180)




Note 16: Litigation
     Legal challenges to PBGC’s policies and positions continued in 2010. At the end of the fiscal year, PBGC had 52
active cases in state and federal courts and 630 bankruptcy and state receivership cases.
     PBGC records as a liability on its financial statements an estimated cost for unresolved litigation to the extent that
losses in such cases are probable and estimable in amount. In addition to such recorded costs, PBGC estimates with a
degree of certainty that possible losses of up to $68 million could be incurred in the event that PBGC does not prevail in
these matters.




Note 17: Subsequent Events
     Management evaluated subsequent events through November 12, 2010, the date the financial statements were
available to be issued. Events or transactions occurring after September 30, 2010, but prior to November 12, 2010 that
provided additional evidence about conditions that existed at September 30, 2010, for either the single-employer or
multiemployer program, have been recognized in the financial statements for the period ended September 30, 2010.
     For the single-employer program, subsequent to September 30, 2010, business and financial conditions significantly
improved for a sponsor of two large single-employer plans which were classified as Probable at September 30, 2010.
Had these plan sponsor events occurred prior to FY 2010 year-end, PBGC’s financial statements would have reflected
an improvement of $550 million in the single-employer Net loss of $517 million, resulting in a Net gain of $33 million,
and an increase in the Net position of $550 million (from $(21,594) million to $(21,044) million).



                                                                    36
     For the multiemployer program, events or transactions that provided evidence about conditions that did not exist at
September 30, 2010 but arose before the financial statements were available to be issued have not been recognized in the
financial statements for the period ended September 30, 2010.




                                                          37
Audit of the Pension Benefit Guaranty Corporation’s
 Fiscal Year 2010 and 2009 Financial Statements

      Audit Report AUD-2011-2/FA-10-69-1




                   Section III

          Management Comments
                                  Pension Benefit Guaranty Corporation
Prot8ctingAma,ice '. Pan.ion.     1200 K Street. N,W.. Washington . D.C. 20005-4026


    Offic.e of the Director


                                                       MEMORANDUM

                November 8,2010

                To: 	                Rebecca Anne Batts 

                                     Inspector General 


                From: 	              Josh Gotbaum ~             

                                     Director    LJl        

                Subject:             Response to Draft Independent Auditor's Combined Report on the
                                     FY 2010 Financial Statement Audit

                Thank you for the opportunity to comment on the Office of Inspector General's FY 2010
                combined report, including the opinions on PBGC's financial statements, internal
                controls, and compliance with laws and regulations .

                We appreciate the work your office performs in overseeing this audit. Given the
                importance of the work that PBGC performs daily for millions of Americans, it is
                heartening that the Corporation has once again received an unqualified opinion on our
                financial statements for FY 2010.

                We also recognize and concur with your opinion on internal controls. This year' s audit
                reiterated the finding of a material weakness in last year's report, encompassing the
                significant deficiencies of information security, access controls, and financial systems
                integration. Management does not consider financial systems integration to constitute a
                material weakness in and of itself. Nonetheless, after consulting with OIG, we have
                begun a long-term corrective action plan, and we have made measured progress in FY
                2010.

                We concur with the audit results and are committed to carrying out our Corrective Action
                Plans. Your office will be kept apprised of our progress, and we welcome your comments
                along the way.

               cc: 	          Terrence M. Deneen 

                              Patricia Kelly 

                              Richard H. Macy 

                              Vince Snowbarger 

                              Judith R. Starr 

                              Martin O. Boehm 

If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
